<html>
<title> - NOMINATION OF JOHN O. BRENNAN TO BE DIRECTOR OF THE CENTRAL INTELLIGENCE AGENCY</title>
<body><pre>[Senate Hearing 113-31]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 113-31
 
                  NOMINATION OF JOHN O. BRENNAN TO BE

              DIRECTOR OF THE CENTRAL INTELLIGENCE AGENCY

=======================================================================



                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 7, 2013

                             MARCH 5, 2013

                               __________

      Printed for the use of the Select Committee on Intelligence


         Available via the World Wide Web: http://www.fdsys.gov




                  U.S. GOVERNMENT PRINTING OFFICE

80-718                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 DIANNE FEINSTEIN, California, Chairman
                SAXBY CHAMBLISS, Georgia, Vice Chairman

JOHN D. ROCKEFELLER IV, West         RICHARD BURR, North Carolina
    Virginia                         JAMES E. RISCH, Idaho
RON WYDEN, Oregon                    DANIEL COATS, Indiana
BARBARA A. MIKULSKI, Maryland        MARCO RUBIO, Florida
MARK UDALL, Colorado                 SUSAN COLLINS, Maine
MARK WARNER, Virginia                TOM COBURN, Oklahoma
MARTIN HEINRICH, New Mexico
ANGUS KING, Maine
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                   JAMES INHOFE, Oklahoma, Ex Officio
                              ----------                              
                     David Grannis, Staff Director
            Martha Scott Poindexter, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk
                                CONTENTS

                              ----------                              

                            FEBRUARY 7, 2013

                           OPENING STATEMENTS

Feinstein, Hon. Dianne, Chairman, a U.S. Senator from California.     1
Chambliss, Hon. Saxby, Vice Chairman, a U.S. Senator from Georgia    20
Warner, Hon. Mark, a U.S. Senator from Virginia..................    21

                                WITNESS

Brennan, John O., Nominee to be Director of the Central 
  Intelligence Agency............................................    23
    Prepared statement...........................................    28

                         SUPPLEMENTAL MATERIAL

Letter dated January 25, 2013, from James R. Clapper to Senator 
  Dianne Feinstein and Senator Saxby Chambliss...................     3
Letter dated January 8, 2013, from David S. Kris to the Senate 
  Select Committee on Intelligence...............................     4
Letter dated January 22, 2013, from Sarah Cleveland, Gregory 
  Craig, William Dodge, Jeh Johnson, David Kris, David Martin, 
  Daniel Meltzer and Trevor Morrison to Senator Dianne Feinstein.     5
Letter dated January 8, 2013, from Officers and Board Members of 
  Victims of Pan Am 103, Inc.....................................     7
Letter dated January 31, 2013, from retired professional 
  intelligence experts and interrogators.........................     9
Letter from representatives of various faith-based communities...    13
Letter dated January 8, 2013, from Act! for America to Senator 
  Dianne Feinstein and Senator Saxby Chambliss...................    15
Letter dated February 4, 2013, from various organizations to 
  Senator Dianne Feinstein and Senator Saxby Chambliss...........    17
Joint Statement of Senator Dianne Feinstein and Senator Carl 
  Levin, April 27, 2012..........................................    85
Questionnaire for Completion by Presidential Nominees............    92
Additional Prehearing Questions..................................   108
Questions for the Record.........................................   136
Letter dated February 4, 2013, from the Office of Government 
  Ethics to Senator Dianne Feinstein.............................   166

                              ----------                              

                             MARCH 5, 2013

                           OPENING STATEMENT

Feinstein, Hon. Dianne, Chairman, a U.S. Senator from California.    88


                  NOMINATION OF JOHN O. BRENNAN TO BE



              DIRECTOR OF THE CENTRAL INTELLIGENCE AGENCY

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2013

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
Room SH-216, Hart Senate Office Building, the Honorable Dianne 
Feinstein (Chairman of the Committee) presiding.
    Committee Members Present: Senators Feinstein, Chambliss, 
Rockefeller, Burr, Wyden, Risch, Mikulski, Coats, Udall, Rubio, 
Warner, Collins, Heinrich, King, and Levin.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, CHAIRMAN, A U.S. 
                    SENATOR FROM CALIFORNIA

    Chairman Feinstein. We will begin this hearing. And let me 
say right up front that the process is that people are 
respectful; that they don't cheer, they don't hiss, they don't 
show signs; that this is to listen. If that's a problem for 
anybody, I ask you to leave the room now because what we will 
do is remove you from the room--let there be no doubt.
    So, if I may, I would like to begin. The Committee meets 
today in open session to consider the nomination of John 
Brennan to be the 21st director of the Central Intelligence 
Agency and the first director to have risen through the 
Agency's ranks since Bob Gates.
    Mr. Brennan, congratulations on your nomination. I see 
Senator Warner has come in. Senator, I will make opening 
comments, the Vice Chairman will make opening comments, and 
then we will turn to you for your introduction, if that's 
agreeable.
    Mr. Brennan, congratulations on your nomination. As you can 
see, it's going to be lively. I'd like to welcome your family, 
as well, and hope you'll introduce them so the Committee can 
give them its thanks.
    This is the first opportunity, also, to welcome our new 
Members--Senator Heinrich, who is on my right; Senator King, 
who is due any moment; Senator Collins, who is on my left; and 
Senator Coburn, who is not here at the moment, but will be, who 
is returning to the Committee. And we have a new Ex-Officio 
Member, Senator Inhofe. So, welcome to all of you.
    The director of the CIA is among the most critical national 
security positions in the United States Government, both 
because of the role the CIA plays in collecting and analyzing 
intelligence relevant to every national security challenge we 
face, and because of the added importance of having steady 
leadership at an organization that conducts most of its 
business outside of the public arena.
    Intelligence is critical to the successful drawdown in 
Afghanistan; to the brutal war going on within Syria's borders, 
across North Africa, where the attacks in Benghazi and the 
hostage situation in Algeria threaten to spread into the next 
front against al-Qa'ida and its affiliated groups; for 
counterterrorism operations around the world; in the efforts by 
the United States and others to prevent the gain and spread of 
weapons of mass destruction in Iran, North Korea, and other 
states; and in addressing emerging threats in space, 
cyberspace, and elsewhere around the globe.
    To confront these challenges, and to lead the CIA through a 
difficult budgetary period after a decade of major budget 
increases, President Obama nominated John Brennan, his closest 
advisor on intelligence and counterterrorism matters for the 
past four years.
    Mr. Brennan is, without a doubt, qualified for this 
position. He served at the CIA for 25 years in analytic, 
operational, and managerial capacities. He has seen the Agency 
from just about every angle--as a line analyst, as chief of 
station, as chief of staff to the director, and as the deputy 
executive director--among many others.
    People who have worked closely with him regularly cite his 
work ethic, his integrity, and his determination. In nominating 
John Brennan, President Obama spoke of his ``commitment to the 
values that define us as Americans.'' DNI Clapper, in a letter 
of support, noted his ``impeccable integrity'' and that ``his 
dedication to country is second to none.''
    So, with that, with unanimous consent, I would like to 
insert into the record the letters the Committee has received 
in regard to Mr. Brennan's nomination.
    [Letters received by the Committee regarding the nomination 
of Mr. Brennan follow:]


[GRAPHIC] [TIFF OMITTED] 80718.001

[GRAPHIC] [TIFF OMITTED] 80718.002

[GRAPHIC] [TIFF OMITTED] 80718.003

[GRAPHIC] [TIFF OMITTED] 80718.004

[GRAPHIC] [TIFF OMITTED] 80718.005

[GRAPHIC] [TIFF OMITTED] 80718.006

[GRAPHIC] [TIFF OMITTED] 80718.007

[GRAPHIC] [TIFF OMITTED] 80718.008

[GRAPHIC] [TIFF OMITTED] 80718.009

[GRAPHIC] [TIFF OMITTED] 80718.010

[GRAPHIC] [TIFF OMITTED] 80718.011

[GRAPHIC] [TIFF OMITTED] 80718.012

[GRAPHIC] [TIFF OMITTED] 80718.013

[GRAPHIC] [TIFF OMITTED] 80718.014

[GRAPHIC] [TIFF OMITTED] 80718.015

[GRAPHIC] [TIFF OMITTED] 80718.016

    Chairman Feinstein. John Brennan, by all accounts, will be 
a strong leader, guided firmly by the law and his strong 
ethical code. He has assured the Committee, in his response to 
pre-hearing questions, that he will be independent from 
political influence; he will seek only to provide the 
President, the Congress, and other leaders with his best 
analysis and advice.
    His responses to the Committee's questions are available on 
the Committee's website, at www.intelligence.senate.gov. Of 
course, the Committee must conduct its due diligence on such an 
important nominee, so Members are going to have questions in a 
range of topics, including his plans for directing the Agency, 
major national security challenges we face, and positions and 
actions he has taken in his current and past jobs.
    Also of interest will be Mr. Brennan's views on the use of 
targeted lethal force in counterterrorism operations. Mr. 
Brennan has been one of the few administration officials able 
to speak publicly about such issues; Members will certainly 
want to understand his views on this, to include the importance 
of Congress receiving all of the relevant legal analyses from 
the Office of Legal Counsel at the Department of Justice.
    While the disclosure earlier this week of a 16-page 
unclassified White Paper on the government's legal analysis of 
the use of targeted force against a United States citizen, who 
was a senior operational leader of al-Qa'ida--there is finally 
more information available to the public.
    I have been calling, and others have been calling--the Vice 
Chairman and I--for increased transparency on the use of 
targeted force for over a year, including the circumstances in 
which such force is directed against U.S. citizens and 
noncitizens alike. I have also been attempting to speak 
publicly about the very low number of civilian casualties that 
result from such strikes; I have been limited in my ability to 
do so.
    But for the past several years, this Committee has done 
significant oversight of the government's conduct of targeted 
strikes and the figures we have obtained from the Executive 
Branch--which we have done our utmost to verify--confirm that 
the number of civilian casualties that have resulted from such 
strikes each year has typically been in the single digits.
    When I ask to give out the actual numbers, I'm told, ``You 
can't.'' And I say, ``Why not?'' ``Because it's classified,'' 
``It's a covert program,'' ``For the public, it doesn't 
exist.'' Well, I think that rationale, Mr. Brennan, is long 
gone, and I'm going to talk to you in my questions a little bit 
about that, because I think it's very important that we share 
this data with people.
    This Committee will continue to perform significant 
oversight of targeted strikes. We received, this morning, an 
Office of Legal Counsel opinion on the topic. Actually, we 
received a short one and a long one. And while I was there, I 
was delighted to see Senator Wyden reading, Senator King in the 
room, and Senator Udall came in the room. And I'm hopeful that 
every Member will avail of themselves of this opportunity to 
review those OLC opinions.
    I also intend to review proposals for legislation to ensure 
that drone strikes are carried out in a manner consistent with 
our values, and the proposal to create an analogue of the 
Foreign Intelligence Surveillance Court to review the conduct 
of such strikes.
    Finally, I will want to know how the nominee intends to 
lead an agency that's had four directors since DCI Tenet 
resigned in July of '04, now in a budget downturn, and what he 
sees as the major challenges before the CIA.
    For the information of Members, we will have rounds of 
questions of eight minutes each, and Members will be recognized 
by seniority, alternating between the sides.
    Members have requested the opportunity to ask Mr. Brennan 
questions that will require classified answers, as well, so we 
have the ability to move to a classified session following this 
hearing, if it is timely and we're able to do so. So my 
suggestion is that we play that ear by ear, Mr. Vice Chairman, 
and see if it's possible to do so. If it isn't, we will have 
our closed session on Tuesday at our next hearing.
    Finally, before turning to the Vice Chairman, I'd like to 
conclude my remarks the same way I did at the confirmation for 
General Petraeus. Again this time, the transition between CIA 
directors has been managed by acting director Michael Morell. 
I'd like to thank Mr. Morell for keeping the Agency on firm 
footing and for his agreement to remain as deputy director 
after the confirmation process. He continues to be a top notch 
CIA officer, a friend of the Committee, and I'm sure he will be 
an excellent deputy, Mr. Brennan.
    Mr. Vice Chairman, please proceed.

  OPENING STATEMENT OF SAXBY CHAMBLISS, VICE CHAIRMAN, A U.S. 
                      SENATOR FROM GEORGIA

    Vice Chairman Chambliss. Thank you very much, Madam Chair.
    And Mr. Brennan, I join the Chair in congratulating you on 
your nomination and welcoming you to the Committee today. And I 
don't have to remind you--because you are a career individual--
of the importance of your nomination to head the Central 
Intelligence Agency. I also want to welcome your family and 
thank them for their support of you during your years of 
commitment to our government.
    Also, I want to just say, as the Chairman did, how much we 
appreciate Mike Morell. And I'm very pleased to see in your 
prepared statement that you mention Mike and his contribution 
to the Central Intelligence Agency, and that you intend to keep 
Mike in place. He is a very valued public servant, and a guy 
who has stepped into a very difficult situation now twice and 
has led with great commitment and has provided the kind of 
leadership the Agency has needed.
    Mr. Brennan, if confirmed as the next director, it will be 
your responsibility to lead the CIA as our nation continues to 
face significant national security challenges. While we've 
heard a lot in recent months about al-Qa'ida being decimated 
and on the run, it is by no means destroyed, and the threat of 
terrorism from its affiliates, especially in Yemen and North 
Africa, remains very real.
    Just in the past few months, terrorist attacks in Algeria 
and Benghazi have claimed American lives, so it is clear that 
our vigilance must not waver. At the same time, our attention 
focused beyond these threats posed by al-Qa'ida and other 
terrorist organizations, from Iran to North Korea to Venezuela. 
From nuclear proliferation, to cyber intrusions, to 
counterintelligence, the challenges are constant and immense, 
and the CIA is at the point of the spear.
    As your predecessors faced similar challenges, they 
recognized the importance of working hand in hand with 
Congress, especially the Congressional intelligence committees. 
I appreciated your commitment to me to be open and transparent 
with this Committee, if you are in fact confirmed as the next 
director.
    I expect this commitment to actually be born out and 
practiced, regardless of political pressures, and not just 
become words spoken during the confirmation process. Far too 
often, the Committee is facing unnecessary and, frankly, 
legally-questionable obstacles, in receiving needed oversight 
information from the Intelligence Community.
    As we hear from you this afternoon, I also believe it is 
important for you to set the record straight on a few matters 
relating to detention policy and the CIA's detention and 
interrogation program. We know that the 2009 Executive Order 
removed the CIA from the detention business. But the current 
framework is simply not working to get real-time access to 
intelligence from terrorist detainees.
    I reviewed elements of the 9/11 Commission report in 
preparation for this hearing, and I am concerned that the 
administration is making the same mistakes that were made 
before 9/11, when the CIA missed vital information on KSM, the 
mastermind of the attacks, and decided to forego a capture 
operation of Osama bin Laden. The Commission cited the 
administration's focus on using the Article 3 court process as 
factors in both instances.
    You and I also discussed the Committee's report on the 
CIA's detention and interrogation program, which was approved 
in December by a slim majority. You told me that you had 
completed your review of the report's Executive Summary, and 
the Findings and Conclusions, and you'll have an opportunity to 
express your observations and the concerns that you expressed 
to me with the rest of the Committee today.
    Mr. Brennan, I thank you once again for your dedication and 
your service to our country, and we look forward to your 
testimony and to your response to questions submitted by the 
Committee.
    Thanks, Madam Chair.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman. 
And now we will turn to the distinguished senator from 
Virginia, Senator Mark Warner.

 OPENING STATEMENT OF MARK WARNER, A U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Chairman Feinstein, Vice 
Chairman Chambliss, and colleagues. It's my honor to introduce 
John Brennan as the President's nominee to be the next director 
of the Central Intelligence Agency.
    Like so many thousands of other professionals in the United 
States Intelligence Community, John now calls Virginia home. It 
has been my privilege, as a Member of this Committee for the 
last two years, to represent many of the thousands of men and 
women in our intelligence agencies who also call Virginia home.
    I would also make mention of the fact, very briefly, since 
we don't get this many opportunities in front of this kind of 
public audience, to recognize an action that Senator Mikulski 
and I took last Congress that many of you joined with us on 
that we will reintroduce this year--a joint resolution to mark 
U.S. Intelligence Professionals Day--to bring respectful 
attention to these quiet professionals who keep our nation safe 
every day. And I, again, look forward to working with all of 
you to make sure that we do this resolution again.
    These same qualities--dedication, selflessness, 
intelligence, and patriotism--are well represented in John 
Brennan, whom the men and women of the CIA will find a 
dedicated leader in public service, should he be confirmed. 
While I have not had the opportunity to work with Mr. Brennan 
as much as some of the other Members, I've enjoyed our meeting 
together. And as the Chairman has already indicated, John 
Brennan's long career of public service and his record have 
prepared him to be director of the CIA.
    He served for 25 years at the Agency in the field and at 
Headquarters, including as deputy executive director in Saudi 
Arabia, and as briefer to two presidents since 9/11. He's been 
on the front lines in the fight against al-Qa'ida, including 
standing up the National Counterterrorism Center. He has 
enormous appreciation for the men and women of the CIA and the 
work they do--often in the shadows--to keep our nation safe.
    One thing that I was also impressed in our meeting was that 
Mr. Brennan has been an advocate for greater transparency in 
our counterterrorism policy and for adherence to the rule of 
law. As a Member and a new Member of this oversight committee, 
I appreciate that.
    As the President said, the imperative to secure the nation 
must not come at the sacrifice of our laws or ideals. This 
needs never be an either/or choice. We can protect the nation 
and stay true to our principles. As has been raised by the 
Chair and the Vice Chair, I think it is also important--and 
these are questions that I'll be asking, as well--to ensure 
that while we look at the programs of the CIA, that these 
programs' effectiveness be measured objectively and not simply 
by those who are charged with implementing them.
    So, the Chairman has already gone through other parts of 
your background; I again want to congratulate you on this 
nomination, the service you've provided to our nation so far, 
and, in the aftermath of this hearing, hopefully the service 
that you'll provide on a going-forward basis.
    With that, Madam Chairman, I'll come back to the dais and 
look forward to my chance to ask the nominee questions, as 
well.
    Chairman Feinstein. Thank you very much, Senator Warner. 
Mr. Brennan, please stand, raise your right hand, and I'll 
administer the oath.
    ``I, John Brennan, do solemnly swear--''
    Mr. Brennan. I, John Brennan, do solemnly swear----
    Chairman Feinstein [continuing]. ``That I will give this 
Committee the truth, the full truth, and nothing but the truth, 
so help me God.''
    Mr. Brennan [continuing]. That I will give this Committee 
the truth, the full truth, and nothing but the truth, so help 
me God.
    Chairman Feinstein. Thank you very much. And we look 
forward to hearing your testimony.

   STATEMENT OF JOHN O. BRENNAN, NOMINEE FOR DIRECTOR OF THE 
                  CENTRAL INTELLIGENCE AGENCY

    Mr. Brennan. Chairman Feinstein, Vice Chairman Chambliss, 
Members of the Committee, I am honored to appear before you 
today as the President's nominee----
    [Disruption by a protestor in the audience.]
    Chairman Feinstein. Would you hold, please?
    I will ask the Capitol Police officers to please remove 
this woman.
    [Protest continues.]
    Chairman Feinstein. Please remove----
    [Protestor is removed from the Hearing Room.]
    Chairman Feinstein. I'm going to say, once again, that we 
welcome everyone here; that we expect no clapping, we expect no 
hissing, we expect no demonstration in this room. This is a 
very serious hearing. I will stop the hearing and I will ask 
the room to be cleared, so know that.
    Please continue, Mr. Brennan.
    Mr. Brennan. Thank you, Chairman. I am honored to appear 
before you today as the President's nominee to lead the Central 
Intelligence Agency. I am deeply grateful to President Obama 
for the confidence he has placed in me by sending my name 
forward to the Senate for consideration.
    Senator Warner, thank you for your generous introduction, 
for your service to our nation, and for your strong support for 
those who defend it. This includes the extraordinary men and 
women of the CIA and the Intelligence Community, so many of 
whom, like me, call Virginia home, and call you our Senator.
    I would not be here today without the love and support of 
my wife, Kathy, who has been my life partner for 34 years, and 
who, like the spouses of many other public servants and 
intelligence professionals----
    [Disruption by another protestor in the audience.]
    Mr. Brennan [continuing]. Has made numerous sacrifices over 
the years.
    Chairman Feinstein. Would you--would you pause, Mr. 
Brennan?
    If you would remove that individual, please, as quickly as 
you can. Thank you.
    [Protestor is removed from the Hearing Room.]
    Chairman Feinstein. Mr. Brennan, please proceed.
    Mr. Brennan [continuing]. My wife, Kathy, who, like the 
spouses of many other public servants and intelligence 
professionals, has made numerous sacrifices over the years, 
bearing the brunt of family responsibilities because of my 
chosen profession.
    Similarly, I would like to pay tribute to my three 
children, who, like the children of many CIA officers and other 
national security professionals, have had to deal with the 
disappointments associated with an absentee parent far more 
often than they should.
    And I'm very pleased to be joined today by my wife, Kathy, 
and my brother, Tom.
    [Disruption by another protestor in the audience.]
    Chairman Feinstein. All right, we will stop again.
    Please remove that woman.
    [Protest continues.]
    Chairman Feinstein. If you could please expedite the 
removal----
    [Protest continues.]
    [Protestor is removed from the Hearing Room.]
    Chairman Feinstein [continuing]. Please proceed, Mr. 
Brennan. The next time, we're going to clear the chamber and 
bring people back in one by one. This witness is entitled to be 
heard, ladies and gentlemen. So please give him that 
opportunity.
    Mr. Brennan. Thank you. A heartfelt ``thank you'' also goes 
to my family in New Jersey, especially my 91-year-old mother, 
Dorothy, and my 92-year-old father, Owen, who emigrated from 
Ireland nearly 65 years ago----
    [Disruption by another protestor in the audience.]
    Chairman Feinstein. All right, I'm going to ask--we're 
going to halt the hearing. I'm going to ask that the room be 
cleared and that the CODEPINK associates not be permitted to 
come back in. We've done this five times now, and five times 
are enough. So, we will recess for a few minutes.
    [Protest continues.]
    Chairman Feinstein. Ladies and gentlemen, if you would mind 
leaving, we will then have you come back in, but it's the only 
way I think we're going to stop this. We will recess for a few 
minutes.
    [Whereupon, the Committee recessed briefly.]
    Chairman Feinstein. Okay, we will reconvene the hearing. If 
the press would please take their places----
    Mr. Brennan, please proceed.
    Mr. Brennan. Thank you, Chairman Feinstein.
    I was talking about my parents, my 91-year-old mother, 
Dorothy, and my 92-year-old father, Owen, who emigrated to this 
country 65 years ago and who, together, raised my sister, my 
brother, and I to cherish the opportunity known as America.
    As I appear before you today, I would additionally like to 
extend a special salute to David Petraeus, a patriot who 
remains--as do all former directors--one of the staunchest 
advocates of the Agency's mission and workforce.
    I want to express my admiration for my close friend and 
colleague, Michael Morell, who has twice guided the CIA as 
acting director, with a steady hand, integrity, and exceptional 
skill. If confirmed, it would be a distinct privilege for me to 
work side by side with Michael--my friend, and the epitome of 
an intelligence professional--in the months and years ahead.
    It also would be a tremendous privilege to serve with the 
Director of National Intelligence, Jim Clapper, who has 
mentored literally legions of intelligence professionals ever 
since his service in Vietnam.
    As the President's principal intelligence advisor and the 
head of the Intelligence Community, Jim is a person of 
longstanding and deep experience and integrity. He and I share 
identical views on the role of intelligence and the importance 
of giving current and future generations of intelligence 
professionals the support they need and that they so richly 
deserve.
    It would be the greatest honor of my professional life to 
lead the women and men of the Central Intelligence Agency--the 
Agency where I started my career nearly 33 years ago and where 
I served for a quarter-century. A 24-year-old fresh out of 
graduate school, I arrived at Langley in August 1980 as a GS-9 
career trainee, determined to do my part for national security 
as one of this nation's intelligence officers.
    When I joined the CIA in August 1980, world events were 
unsettled. Our Embassy in Tehran had been overrun the year 
before, and 52 Americans were still being held hostage by a 
radical new government in Iran. The Soviet invasion of 
Afghanistan was less than a year old, and the next decade would 
witness the slow but steady crumbling of the Soviet Union. 
Nuclear proliferation and the spread of weapons of mass 
destruction were a constant concern. And U.S. officials were 
hard at work around the globe, trying to prevent regional 
tensions and animosities from turning into full-scale wars.
    And, ominously, the United States was about to face an 
upsurge in terrorist attacks that would claim hundreds of 
American lives in Lebanon, including a 49-year-old CIA officer 
named Bob Ames, who was killed during a brief visit to our 
Embassy in Beirut, and who, at the time, was my boss at CIA.
    During my 25-year career at CIA, I watched up close, and 
even participated, in history being made in far off corners of 
the world, as CIA fulfilled its critical intelligence roles--
collecting intelligence, uncovering secrets, identifying 
threats, partnering with foreign intelligence and security 
services, analyzing opaque and complicated developments abroad, 
carrying out covert action, and attempting to forecast events 
yet to happen--all in an effort to protect our people and to 
strengthen America's national security.
    And throughout my career, I had the great fortune to 
experience first-hand, as well as witness, what it means to be 
a CIA officer: such as an analyst, who has the daunting task 
and tremendous responsibility to take incomplete and frequently 
contradictory information and advise the senior-most policy-
makers of our government about foreign political, military, and 
economic developments.
    Or an operations officer, whose job it is to find and 
obtain those elusive secrets that provide advanced warning of 
strategic surprise, political turbulence, terrorist plots, 
impending violence, cyber attacks, and persistent threats such 
as nuclear, chemical, and biological weapons proliferation.
    Or a technical expert, who seeks new and creative ways to 
find nuggets of intelligence in tremendous volumes of data, 
provides secure, and even stealthy, intelligence collection and 
communication systems, and counters the latest technological 
threats to our nation.
    Or a support officer or manager with the responsibility to 
ensure that the core missions of the Agency--collecting 
intelligence, providing all source analysis, and, when directed 
by the President, conducting covert action--are carried out 
with the requisite skill, speed, agility, and proficiency.
    From the Middle East to the Central Caucasus; from Sub-
Saharan Africa to Central and South America; from the vast 
expanses of Asia to the great cities of Europe, and all 
countries and regions in between, CIA officers were there--
sometimes in force, and sometimes virtually standing alone. And 
for those 25 years, it was a great honor for me to be a CIA 
officer, as I knew that the Agency's contributions to this 
country's security were as invaluable as they were innumerable.
    Following my retirement from the CIA in 2005, I had the 
good fortune to experience other professional opportunities. 
For three years, I served as President and Chief Executive 
Officer of a private-sector company, where I learned, first-
hand, some very important lessons about fiduciary 
responsibility and sound business practices. And for the past 
four years I've had the privilege to serve as the President's 
principal policy advisor on Homeland Security and 
Counterterrorism.
    In that role, I have had the opportunity to work daily with 
some of the finest Americans I have ever met from the 
intelligence, military, homeland security, law enforcement, and 
diplomatic communities, who have dedicated their lives to the 
safety and security of their fellow Americans. It is because of 
the work of those Americans--serving domestically, and 
especially, those serving in dangerous places abroad--that we 
are able to experience the freedom and security that are the 
hallmarks of our nation.
    I believe my CIA background and my other professional 
experiences have prepared me well for the challenge of leading 
the world's premier intelligence agency at this moment in 
history, which is as dynamic and consequential as any in recent 
decades, and will continue to be in the years ahead. Simply 
stated, the need for accurate intelligence and prescient 
analysis from CIA has never been greater than it is in 2013 or 
than it will be in the coming years.
    Historic political, economic, and social transformations 
continue to sweep through the Middle East and North Africa, 
with major implications for our interests, Israel's security, 
our Arab partners, and the prospects for peace and stability 
throughout the region. We remain at war with al-Qa'ida and its 
associated forces, which, despite the substantial progress we 
have made against them, still seek to carry out deadly strikes 
against our homeland and our citizens, and against our friends 
and allies.
    U.S. computer networks and databases are under daily cyber 
attack by nation states, international criminal organizations, 
sub-national groups, and individual hackers. And the regimes in 
Tehran and Pyongyang remain bent on pursuing nuclear weapons 
and intercontinental ballistic missile delivery systems, rather 
than fulfilling their international obligations or even meeting 
the basic needs of their people.
    Yes, the CIA's mission is as important to our nation's 
security today as at any time in our nation's history. In 
carrying out their mission, the men and women of the CIA are 
frequently asked to undertake challenging, perilous, and, yes, 
controversial actions, on behalf of the American people. The 
CIA is not immune from scrutiny of these efforts, and I welcome 
a discussion of CIA's past and present activities.
    If I am confirmed, one of my highest priorities would be 
the Committee's lengthy report on the CIA's former rendition, 
detention, and interrogation program that involved now-banned 
interrogation techniques. I have read the Findings and 
Executive Summary of the 6,000-page report, which raises a 
number of very serious issues. Given the gravity and importance 
of this subject, I would look forward to further dialogue with 
Members of the Committee on the report and its Findings, if I 
am confirmed.
    In addition, some of our government's current 
counterterrorism policies and operations have sparked 
widespread debate--domestically, internationally, and in this 
room. I have publicly acknowledged that our fight against al-
Qa'ida and associated forces have sometimes involved the use of 
lethal force outside the hot battlefield of Afghanistan.
    Accordingly, it is understandable that there is great 
interest in the legal basis, as well as the thresholds, 
criteria, processes, procedures, approvals, and reviews of such 
actions. I have strongly promoted such public discussions with 
the Congress and with the American people, as I believe that 
our system of government and our commitment to transparency 
demands nothing less.
    As the elected representatives of the American people and 
as Members of this Committee, you have the obligation to 
oversee the activities of the CIA and the other elements of the 
Intelligence Community to ensure that they are being carried 
out effectively, lawfully, successfully, and without regard to 
partisanship. If confirmed, I would endeavor to keep this 
Committee fully and currently informed, not only because it is 
required by law, but because you can neither perform your 
oversight function nor support the mission of the CIA if you 
are kept in the dark.
    And I know that irrespective of the fullness of that 
dialogue, there will be occasions when we disagree, just as you 
disagree among yourselves at times, on aspects of past, 
current, and future activities of the CIA. Such disagreement is 
healthy, and is a necessary part of our democratic process. But 
such disagreements should never prevent us from carrying out 
our national security and intelligence responsibilities, as a 
failure to do so could have devastating consequences for the 
safety and security of all Americans.
    During my courtesy calls with many of you, I also heard 
repeated references to a ``trust deficit'' that has, at times, 
existed between this Committee and the CIA. If I am confirmed, 
a trust deficit between the Committee and the CIA would be 
wholly unacceptable to me, and I would make it my goal on Day 
One of my tenure, and every day thereafter, to strengthen the 
trust between us.
    I have a reputation for speaking my mind, and, at times, 
doing so in a rather direct manner, which some attribute to my 
New Jersey roots. I like to think that my candor and bluntness 
will reassure you that you will get straight answers from me--
maybe not always the ones you like, but you will get answers, 
and they will reflect my honest views. That's the commitment I 
made to you.
    I would like to finish by saying a few words about the 
importance of taking care of the women and men who serve in the 
CIA. Because of the secrecy that intelligence work requires, 
few Americans will ever know the extraordinary sacrifices that 
these professionals and their families make every day. Many of 
them risk their lives and, at times, have given their lives to 
keep us safe.
    If confirmed, I would make it my mission, in partnership 
with the Congress, to ensure that the men and women have the 
training, tradecraft, linguistic skills, technical tools, 
guidance, supervision, and leadership they need to do their 
jobs. They also need assurance that we will do all we can to 
protect our nation's secrets and prevent leaks of classified 
information. These leaks damage our national security--
sometimes gravely--putting these CIA employees at risk and 
making their missions much more difficult.
    The men and women of the CIA are a national treasure, and I 
will consider it one of my most important responsibilities to 
take care of them, just as others took care of me when I first 
arrived at Langley as a young trainee in 1980.
    Chairman, Vice Chairman, and Members of the Committee, as 
you well know, when you arrive at CIA Headquarters in Langley 
and enter the main lobby, you immediately see the marble 
Memorial Wall. On it are stars--each one representing a Member 
of the CIA family who gave his or her life in the service of 
this nation. Today, there are 103 stars on that wall.
    To me, and to everyone in the CIA, they are not simply 
stars, nor are they only visible remembrances of dearly 
departed colleagues and friends. The stars represent heroic and 
unsung patriots; Americans who lived their lives loving this 
country and who died protecting it.
    That Memorial Wall means something very special to me and 
to every other American who has proudly served at the Agency. I 
want all CIA employees always to be proud of the organization 
to which they belong, and to be proud of its activities.
    And if given the honor to serve as the 21st director of the 
CIA, I would take it as a sacred obligation to do everything in 
my ability to make sure the Central Intelligence Agency is the 
absolute best intelligence service it can be, and one that 
makes all Americans proud.
    Thank you very much, and I look forward to taking your 
questions.
    [The prepared statement of Mr. Brennan follows:]
Statement of John O. Brennan, Nomination Hearing to be Director of the 
                      Central Intelligence Agency
    Chairman Feinstein, Vice Chairman Chambliss, Members of the 
Committee--I am honored to appear before you today as the President's 
nominee to lead the Central Intelligence Agency. I am deeply grateful 
to President Obama for the confidence he has placed in me by sending my 
name forward to the Senate for consideration.
    Senator Warner, thank you for your generous introduction, for your 
service to our Nation, and for your strong support of those who defend 
it. This includes the extraordinary men and women of the CIA and our 
Intelligence Community, so many of whom, like me, call Virginia home 
and call you our Senator.
    I would not be here today without the love and support of my wife 
Kathy, who has been my life partner for more than 34 years and who, 
like the spouses of many other public servants and intelligence 
professionals, has made numerous sacrifices over the years, bearing the 
brunt of family responsibilities because of my chosen profession. 
Similarly, I would like to pay tribute to my three children, who, like 
the children of many CIA officers and other national security 
professionals, have had to deal with the disappointments associated 
with an absentee parent far more often than they should.
    A heartfelt ``thank you'' also goes to my family in New Jersey, 
especially my 91-year-old mother Dorothy and my 92-year-old father 
Owen--who emigrated from Ireland nearly 65 years ago--and who, 
together, raised my sister, brother, and me to cherish the opportunity 
that is America.
    As I appear before you today, I would additionally like to extend a 
special salute to David Petraeus, a patriot who remains as do all 
former Directors--one of the staunchest advocates of the Agency's 
mission and workforce.
    I want to express my admiration for my close friend and colleague, 
Michael Morell, who has twice guided the CIA as Acting Director with a 
steady hand, integrity, and exceptional skill. If confirmed, it would 
be a distinct privilege for me to work side-by-side with Michael in the 
months and years ahead.
    It also would be a tremendous privilege to serve with Director of 
National Intelligence Jim Clapper, who has mentored literally legions 
of intelligence professionals ever since his service in Vietnam. As the 
President's principal intelligence advisor and head of the Intelligence 
Community, Jim is a person of longstanding and deep experience and 
integrity. He and I share identical views on the role of intelligence 
and on the importance of giving current and future generations of 
intelligence professionals the support they need and so richly deserve.
    It would be the greatest honor of my professional life to lead the 
women and men of the Central Intelligence Agency--the Agency where I 
started my career nearly 33 years ago and where I served for a quarter 
century. A 24-year-old fresh out of graduate school, I arrived at 
Langley in August 1980 as a GS-9 ``career trainee,'' determined to do 
my part for national security as one of this Nation's intelligence 
officers.
    When I joined the CIA in August 1980, world events were unsettled. 
Our Embassy in Tehran had been overrun the year before, and 52 
Americans were still being held hostage by a radical new government in 
Iran. The Soviet invasion of Afghanistan was less than a year old, and 
the next decade would witness the slow but steady crumbling of the 
Soviet Union. Nuclear proliferation and the spread of weapons of mass 
destruction were a constant concern, and U.S. officials were hard at 
work around the globe trying to prevent regional tensions and 
animosities from turning into full-scale wars. And, ominously, the 
United States was about to face an upsurge in terrorist attacks that 
would claim hundreds of American lives in Lebanon, including a 49-year-
old CIA officer named Bob Ames, who was killed during a brief visit to 
our Embassy in Beirut and who, at the time, was my boss at CIA.
    During my 25-year career at CIA, I watched up close and even 
participated in history being made in far-off corners of the world, as 
CIA fulfilled its critical intelligence roles--collecting intelligence, 
uncovering secrets, identifying threats, partnering with foreign 
intelligence and security services, analyzing opaque and complicated 
developments abroad, carrying out covert action, and attempting to 
forecast events yet to happen--all in an effort to protect our people 
and strengthen America's national security.
    And throughout my career, I had the great fortune to experience 
firsthand as well as to witness what it means to be a CIA officer.

    <bullet>  Such as an analyst, who has the daunting task and 
tremendous responsibility to take incomplete and frequently 
contradictory information and advise the senior most policymakers of 
our government about foreign political, military, and economic 
developments.
    <bullet>  Or an operations officer, whose job it is to find and 
obtain those elusive secrets that provide advance warning of strategic 
surprise; political turbulence; terrorist plots; impending violence; 
cyber attacks; and persistent threats such as nuclear, chemical, and 
biological weapons proliferation.
    <bullet>  Or a technical expert, who seeks new and creative ways to 
find nuggets of intelligence in tremendous volumes of data, provide 
secure and even stealthy intelligence collection and communications 
systems, and counter the latest technological threats to our Nation.
    <bullet>  Or a support officer or manager with the responsibility 
to ensure that the core missions of the Agency--collecting 
intelligence, providing all-source analysis, and, when directed by the 
President, conducting covert action--are carried out with the requisite 
skill, speed, agility, and proficiency.

    From the Middle East to the central Caucuses, from sub-Saharan 
Africa to Central and South America, from the vast expanses of Asia to 
the great cities of Europe, and all countries and regions in between, 
CIA officers were there . . . sometimes in force and sometimes 
virtually standing alone.
    And for those 25 years, it was a great honor for me to be an 
officer of the CIA, as I knew that the Agency's contributions to this 
country's security were as invaluable as they were innumerable.
    Following my retirement from CIA in 2005, I had the good fortune to 
experience other professional opportunities. For three years, I served 
as President and Chief Executive Officer of a private sector company, 
where I learned firsthand some very important lessons about fiduciary 
responsibility and sound business practices. And for the past four 
years, I have had the privilege to serve as the President's principal 
policy advisor on homeland security and counterterrorism. In that role, 
I have had the opportunity to work daily with some of the finest 
Americans I have ever met--from the intelligence, military, homeland 
security, law enforcement, and diplomatic communities--who have 
dedicated their lives to the safety and security of their fellow 
Americans. It is because of the work of those Americans--serving 
domestically and especially in dangerous places abroad--that we are 
able to experience the freedom and security that are the hallmarks of 
our Nation.
    I believe my CIA background and my other professional experiences 
have prepared me well for the challenge of leading the world's premier 
intelligence agency at this moment in history, which is as dynamic and 
consequential as any in recent decades, and will continue to be in the 
years ahead. Simply stated, the need for accurate intelligence and 
prescient analysis from CIA has never been greater than it is in 2013--
or than it will be in the coming years.

    <bullet>  Historic political, economic, and social transformations 
continue to sweep through the Middle East and North Africa, with major 
implications for our interests, Israel's security, our Arab partners, 
and the prospects for peace and stability throughout the region.
    <bullet>  We remain at war with al-Qa'ida and its associated 
forces, which--despite the substantial progress we have made against 
them--still seek to carry out deadly strikes against our homeland and 
our citizens, as well as against our friends.
    <bullet>  U.S. computer networks and databases are under daily 
cyber attack by nation states, international criminal organizations, 
subnational groups, and individual hackers.
    <bullet>  And regimes in Tehran and Pyongyang remain bent on 
pursuing nuclear weapons and intercontinental ballistic missile 
delivery systems rather than fulfilling their international obligations 
or even meeting the basic needs of their people.

    Yes, the CIA's mission is as important to our Nation's security 
today as at any time in our Nation's history.
    In carrying out their mission, the men and women of the CIA are 
frequently asked to undertake challenging, perilous, and controversial 
actions on behalf of the American people. The CIA is not immune from 
scrutiny of these efforts, and I welcome a discussion of CIA's past and 
current activities. If I am confirmed, one of my highest priorities 
would be the Committee's lengthy report on the CIA's former rendition, 
detention, and interrogation program that involved now-banned 
interrogation techniques. I have read the findings and executive 
summary of the 6,000 page report, which raise a number of very serious 
issues. Given the gravity and importance of the subject, I would look 
forward to further dialogue with Members of the Committee on the report 
and its findings, if I am confirmed.
    In addition, some of our government's current counterterrorism 
policies and operations have sparked widespread debate, domestically 
and internationally. I have publicly acknowledged that our fight 
against al-Qa'ida and associated forces has sometimes involved the use 
of lethal force outside the ``hot battlefield'' of Afghanistan. 
Accordingly, it is understandable that there is great interest in the 
legal basis as well as the thresholds, criteria, processes, procedures, 
approvals, and reviews of such actions. I have strongly promoted such 
public discussion, with the Congress and with the American people, as I 
believe that our system of government and our commitment to 
transparency demand nothing less.
    As the elected representatives of the American people and as 
Members of the Committee, you have the obligation to oversee the 
activities of the CIA and other elements of the Intelligence Community 
to ensure that they are being carried out effectively, lawfully, 
successfully, and without regard to partisanship.
    If confirmed, I would endeavor to keep this Committee fully and 
currently informed, not only because it is required by law, but because 
you can neither perform your oversight function nor support the mission 
of CIA if you are kept in the dark. And I know that irrespective of the 
fullness of that dialogue, there will be occasions when we disagree, 
just as you disagree among yourselves at times on aspects of past, 
current, and future activities of the CIA. Such disagreement is healthy 
and is a necessary part of our democratic process. But such 
disagreement should never prevent us from carrying out our national 
security and intelligence responsibilities, as a failure to do so could 
have devastating consequences for the safety and security of all 
Americans.
    During my courtesy calls with many of you, I also heard repeated 
reference to a ``trust deficit'' that has, at times, existed between 
this Committee and the CIA. If I am confirmed, a trust deficit between 
the Committee and the CIA would be wholly unacceptable to me, and I 
would make it my goal on Day One of my tenure--and every day 
thereafter--to strengthen the trust between us. I have a reputation for 
speaking my mind and, at times, doing so in a rather direct manner, 
which some attribute to my New Jersey roots. I like to think that my 
candor and bluntness will reassure you that you will get straight 
answers from me--maybe not always the ones you like, but you will get 
answers, and they will reflect my honest views. That's the commitment I 
make to you.
    I would like to finish by saying a few words about the importance 
of taking care of the women and men who serve in the CIA. Because of 
the secrecy that intelligence work requires, few Americans will ever 
know the extraordinary sacrifices that these professionals--and their 
families--make every day. Many of them risk their lives and, at times, 
have given their lives, to keep us safe.
    If confirmed, I would make it my mission--in partnership with the 
Congress--to ensure that the men and women of the CIA have the 
training, tradecraft, linguistic skills, technical tools, guidance, 
supervision, and leadership they need to do their jobs. They also need 
assurance that we will do all we can to protect our Nation's secrets 
and prevent leaks of classified information. These leaks damage our 
national security, sometimes gravely, putting these CIA employees at 
risk and making their missions more difficult. The men and women of the 
CIA are a national treasure, and I will consider it one of my most 
important responsibilities to take care of them, just as others took 
care of me when I first arrived at Langley as a young trainee in 1980.
    Chairman, Vice Chairman, and Members of the Committee, as you well 
know, when you arrive at CIA Headquarters in Langley and enter the main 
lobby, you immediately see the marble Memorial Wall. On it are stars--
each one representing a member of the CIA family who gave his or her 
life in service to our Nation. Today, there are 103 stars on that wall. 
To me, and everyone in the CIA, they are not simply stars, nor are they 
only visible remembrances of dearly departed colleagues and friends. 
The stars represent heroic and unsung patriots--Americans who lived 
their lives loving this country, and who died protecting it.
    That Memorial Wall means something very special to me and to every 
other American who has proudly served at the Agency. I want all CIA 
employees always to be proud of the organization to which they belong 
and to be proud of all of its activities. And if given the honor to 
serve as the 21st Director of the CIA, I would take it as a sacred 
obligation to do everything in my ability to make sure the Central 
Intelligence Agency is the absolute best intelligence service it can be 
and one that makes all Americans proud.
    Thank you very much, and I look forward to taking your questions.

    Chairman Feinstein. Thank you very much, Mr. Brennan.
    I have five short questions that we traditionally ask; if 
you would just answer them yes or no.
    Do you agree to appear before the Committee here or in 
other venues when invited?
    Mr. Brennan. Yes.
    Chairman Feinstein. Do you agree to send officials from the 
CIA and designated staff when invited?
    Mr. Brennan. Yes.
    Chairman Feinstein. Do you agree to provide documents or 
any other materials requested by the Committee in order for it 
to carry out its oversight and legislative responsibilities?
    Mr. Brennan. Yes; all documents that come under my 
authority as director of CIA, I absolutely would.
    Chairman Feinstein. We'll talk to you more about that in a 
minute.
    Mr. Brennan. Yes, Senator.
    Chairman Feinstein. Will you ensure that the CIA and its 
officials provide such material to the Committee when 
requested?
    Mr. Brennan. Yes.
    Chairman Feinstein. Do you agree to inform and fully brief, 
to the fullest extent possible, all Members of this Committee, 
of intelligence activities and covert actions, rather than only 
the Chairman and Vice Chairman?
    Mr. Brennan. Yes, I will endeavor to do that.
    Chairman Feinstein. Thank you. Now, let me--we are now 
going to go into eight-minute rounds. And we'll do it by 
seniority, and alternate from side to side.
    I wanted to talk about, just for a moment, the provision of 
documents; Senator Wyden and others have had much to do about 
this. But our job is to provide oversight to try to see that 
the CIA and Intelligence communities operate legally. In order 
to do that, it is really necessary to understand what the 
official legal interpretation is, so the Office of Legal 
Counsel opinions become very important.
    We began during the Bush administration, with Mr. Bradbury, 
to ask for OLC opinions. Up until last night, when the 
President called the Vice Chairman, Senator Wyden, and myself, 
and said that they were providing the OLC opinions, we had not 
been able to get them. It makes our job--to interpret what is 
legal or not legal--much more difficult if we do not have those 
opinions.
    The staff has asked for eight additional opinions. What I 
want to know is will you become our advocate with the 
administration, so that we can obtain those opinions?
    Mr. Brennan. The National Security Act, as amended, 
requires that the heads of intelligence agencies provide the 
Committee with the appropriate legal documentation to support 
covert actions. I would certainly be an advocate of making sure 
that this Committee has the documentation it needs in order to 
perform its oversight functions. I have been an advocate of 
that position; I will continue to be.
    Chairman Feinstein. I take that as a yes, and I'm counting 
on you to provide eight OLC opinions.
    Second question on this: when the opinion came over, our 
staff were banned from seeing it--this morning. We have 
lawyers. We have very good staff. This is upsetting to a number 
of Members. We depend on our staff, because you can't take 
material home, you can't take notes with you. So the staff 
becomes very important.
    Do you happen to know the reason why our staff are not 
permitted, when we are permitted, to see an OLC?
    Mr. Brennan. Senator--Chairman, I understand fully your 
interest in having your staff have access to this 
documentation; fully understandable. The reason for providing 
information just to Committee Members at times is to ensure 
that it is kept in a limited basis.
    It is rather exceptional, as I think you know, that the 
Office of Legal Counsel opinions, or advice, would be shared 
directly with you. And this, I think, was determined because of 
the rather exceptional nature of the issue and in a genuine 
effort to try to meet the Committee's requirements. I 
understand your interest in having the staff access to it----
    Chairman Feinstein. If you would relay the request, 
officially----
    Mr. Brennan. Absolutely.
    Chairman Feinstein [continuing]. We'd appreciate it very 
much.
    Mr. Brennan. Absolutely; I will.
    Chairman Feinstein. Second thing, when I spoke with you in 
my office, we talked about our report on detention and 
interrogation--the 6,000-page report you mentioned. I asked you 
if you would please read it; you said you would--you said you 
would, for sure, read the 300-page summary. Have you done so?
    Mr. Brennan. Yes, Chairman, I have read the first volume, 
which is 300 pages.
    Chairman Feinstein. Then, let me ask you this question: 
Were the EITs key to the takedown of Osama bin Laden?
    Mr. Brennan. Chairman, the report right now still remains 
classified. And the report has been provided to the Agency and 
Executive Branch for comments.
    There clearly were a number of things, many things, that I 
read in that report that were very concerning and disturbing to 
me, and ones that I would want to look into immediately, if I 
were to be confirmed as CIA director.
    It talked about mismanagement of the program, 
misrepresentations of the information, providing inaccurate 
information. And it was rather damning in a lot of its 
language, as far as the nature of these activities that were 
carried out.
    I am eager to see the Agency's response to that report. I 
read those 300 pages; I look forward, if confirmed, to reading 
the entire 6,000-page volume, because it is of such gravity and 
importance.
    But, Chairman, I do not yet--and nor has the CIA finished 
its review of this information. The Committee's report was 
done, obviously, over an extended period of time; a tremendous 
amount of work that's gone into it. Based on the review of the 
documentary information that was available--the documents, 
there were not interviews conducted with CIA officers.
    I very much look forward to hearing from the CIA on that 
and then coming back to this Committee and giving you my full 
and honest views.
    Chairman Feinstein. Well, thank you. You will have that 
opportunity, I assure you.
    I'd like to ask you about the status of the 
administration's efforts to institutionalize rules and 
procedures for the conduct of drone strikes; in particular, how 
you see your role as CIA director in that approval process.
    Mr. Brennan. Chairman, as this Committee knows--and I'm 
sure wants to continue to protect certain covert action 
activities--but let me talk, generally, about the 
counterterrorism program and the role of CIA, and this effort 
to try to institutionalize and to ensure we have as rigorous a 
process as possible, that we feel that we're taking the 
appropriate actions at the appropriate time.
    The President has insisted that any actions we take will be 
legally grounded, will be thoroughly anchored in intelligence, 
will have the appropriate review process, approval process, 
before any action is contemplated, including those actions that 
might involve the use of lethal force.
    The different parts of the government that are involved in 
this process are involved in the interagency, and my role as 
the President's counterterrorism advisor was to help to 
orchestrate this effort over the past four years to ensure, 
again, that any actions we take fully comport with our law and 
meet the standards that I think this Committee and the American 
people expect of us, as far as taking actions we need to 
protect the American people, but at the same time ensuring that 
we do everything possible before we need to resort to lethal 
force.
    Chairman Feinstein. Thank you.
    Mr. Vice Chairman.
    Vice Chairman Chambliss. Thanks very much, Madam Chair.
    Mr. Brennan, the 9/11 Commission report describes a 
canceled 1998 CIA operation to capture Osama bin Laden using 
tribal groups in Afghanistan.
    The former head of CIA's bin Laden Unit told staff that you 
convinced Director Tenet to cancel that operation. He says that 
following a meeting you had in Riyadh with Director Tenet, the 
bin Laden Unit chief, and others, that you cabled National 
Security Advisor Sandy Berger, saying the operation should be 
canceled in favor of a different approach, described by the 9/
11 Commission as ``an all-out secret effort to persuade the 
Taliban to expel bin Laden.''
    Now, as we know, bin Laden was not expelled. Three months 
later, the bin Laden wrath was unleashed with the attack on our 
embassies. Did you advise Director Tenet and National Security 
Advisor Berger against this operation; and if so, why?
    Mr. Brennan. I had conversation with George Tenet at the 
time. But I must point out, Senator, that every single CIA 
manager--George Tenet, his deputy, the head of the Directorate 
of Operations at the time, and other individuals--the Chief of 
the Counterterrorism Center--argued against that operation, as 
well, because it was not well grounded in intelligence and its 
chances of success were minimal. And it was likely that other 
individuals were going to be killed.
    And so, when I was involved in those discussions, I 
provided the director and others my professional advice about 
whether or not I thought that that operation should go forward. 
I also was engaged in discussions with the Saudi government at 
the time and encouraged certain actions to be taken so that we 
could put pressure on the Taliban, as well as on bin Laden.
    Vice Chairman Chambliss. So, I'm taking it that your answer 
to my question is you did advise against--in favor of the 
cancellation of that operation?
    Mr. Brennan. Based on what I had known at the time, I 
didn't think that it was a worthwhile operation and it didn't 
have a chance of success.
    Vice Chairman Chambliss. The 9/11 Commission reported that 
no capture plan before 9/11 ever again attained the same level 
of detail and preparation; do you have any second thoughts 
about your recommendation to the director to cancel that 
operation?
    Mr. Brennan. Senator, I have no second thoughts whatsoever 
about my advice, which was to look carefully at this operation 
because the chances of success were minimal. I was not in the 
chain of command at that time. I was serving abroad as chief of 
station.
    Vice Chairman Chambliss. As deputy executive director, you 
received the daily updates from the time of Abu Zubaydah's 
capture throughout his interrogation, including the analysis of 
the lawfulness of the techniques, putting you in a position to 
express any concerns you had about the program before any of 
the most controversial techniques, including waterboarding, 
were ever used.
    Now, we found a minimum of 50 memos in the documents within 
the 6,000 pages, on which you were copied. What steps did you 
take to stop the CIA from moving to these techniques you now 
say you found objectionable at the time?
    Mr. Brennan. I did not take steps to stop the CIA's use of 
those techniques. I was not in the chain of command of that 
program. I served as deputy executive director at the time. I 
had responsibility for overseeing the management of the Agency 
and all of its various functions. And I was aware of the 
program; I was cc'd on some of those documents, but I had no 
oversight of it. I wasn't involved in its creation.
    I had expressed my personal objections and views to some 
Agency colleagues about certain of those IETs, such as 
waterboarding, nudity, and others, where I professed my 
personal objections to it, but I did not try to stop it, 
because it was, you know, something that was being done in a 
different part of the Agency under the authority of others, and 
it was something that was directed by the administration at the 
time.
    Vice Chairman Chambliss. Now, you say you expressed your 
objection to other colleagues; did you ever express any concern 
to Director Tenet, to John McLaughlin, Executive Director 
Krongard, or any other of the CIA leaders?
    Mr. Brennan. I had a number of conversations with my Agency 
colleagues on a broad range of issues during that period of 
time--not just on this program, but other ones. We would have 
personal conversations on that.
    Vice Chairman Chambliss. Well, my reason, particularly, for 
naming those individuals, Mr. Brennan, is that they were the 
ones directly above you. Mr. McLaughlin has been quoted in the 
press as saying he never heard from you; he doesn't doubt that 
you did this, but he says he never heard from you. And we just 
have not seen anybody who has come forward and said they ever 
heard any objections from you with respect to these programs.
    Moving on--Mr. Krongard, your boss at the CIA, told the 
Wall Street Journal that you had a role in setting the 
parameters of the program, and I quote, ``Helping to seek 
Justice Department approval for the techniques.'' He went on to 
say that ``John would have been part and parcel of that 
process.'' How does that comport with your response to the 
Committee that you played no role in the program's--and I quote 
again, your answer--its ``creation, execution, or oversight''?
    Mr. Brennan. I respectfully disagree with my former 
colleague, Buzzy Krongard. I was not involved in establishing 
the parameters of that program. I think in that same Wall 
Street Journal article, he goes on to say, in fact, that I was 
not involved in a lot of elements of that program.
    But I was not involved in the establishment of that 
program. Again, I had awareness that the Agency was being asked 
to do this; I had awareness that the Agency was going forward 
on it. I had some visibility into some of the activities there, 
but I was not part of any type of management structure or aware 
of most of the details.
    Vice Chairman Chambliss. That being the case, why would you 
be the recipient of a minimum of 50 e-mails, Mr. Brennan, on 
the progress of the interrogation of Abu Zubaydah, including 
the techniques used in that interrogation?
    Mr. Brennan. Senator, that was probably a standard e-mail 
distribution. I was on thousands upon thousands of e-mail 
distributions, as deputy executive director. I think I was just 
cc'd on them; I wasn't an action officer on it. I know of no 
action I took at the Agency that in any way authorized or 
reprogrammed funds, or anything along those lines.
    Vice Chairman Chambliss. Executive Director Krongard is 
said to have been an advocate of using SERE techniques. Did he 
discuss with you a proposal to move to SERE techniques with Abu 
Zubaydah; and if so, did you raise any objection?
    Mr. Brennan. I don't recall a conversation with Mr. 
Krongard about that particular issue.
    Vice Chairman Chambliss. When you reviewed the intelligence 
that the CIA was getting on Abu Zubaydah after the use of EITs, 
did you think the information was valuable?
    Mr. Brennan. The reports that I was getting subsequent to 
that, and in the years after that, it was clearly my impression 
that there was valuable information that was coming out.
    Vice Chairman Chambliss. In a November 2007 interview, you 
said that information from the interrogation techniques, quote, 
``saved lives.'' But you also say that CIA should be out of the 
detention business.
    The main benefit that I saw in CIA's program was the 
ability to hold and question individuals about whom there was 
significant intelligence that they were terrorists, but not 
necessarily evidence that could be used in a court of law.
    Your view seems to be that even if we could save American 
lives by detaining more terrorists, using only traditional 
techniques, it would be better to kill them with a drone or let 
them go free rather than detain them. Can you explain the logic 
in that argument?
    Mr. Brennan. I respectfully disagree, Senator. I never 
believe it's better to kill a terrorist than to detain him. We 
want to detain as many terrorists as possible so we can elicit 
the intelligence from them in the inappropriate manner so that 
we can disrupt follow-on terrorist attacks. So, I'm a strong 
proponent of doing everything possible short of killing 
terrorists, bringing them to justice, and getting that 
intelligence from them.
    I clearly had the impression, as you said, when I was 
quoted in 2007, that there was valuable intelligence that came 
out from those interrogation sessions. That's why I did say 
that they save lives. I must tell you, Senator, that reading 
this report from the Committee raises serious questions about 
the information that I was given at the time, and the 
impression I had at the time.
    Now I have to determine, based on that information, as well 
as what CIA says, what the truth is. And at this point, 
Senator, I do not know what the truth is.
    Vice Chairman Chambliss. How many high value targets have 
been captured during your service with the administration?
    Mr. Brennan. There have been a number of individuals who 
have been captured, arrested, detained, interrogated, 
debriefed, and put away by our partners overseas, which is--we 
have given them the capacity now, we have provided them the 
intelligence. And, unlike in the immediate aftermath of 9/11 
when a lot of these countries were both unwilling and unable to 
do it, we have given them that opportunity. And so, that's 
where we're working with our partners.
    Vice Chairman Chambliss. How many high-value targets have 
been arrested and detained, and interrogated by the United 
States, during your four years with the administration?
    Mr. Brennan. I'll be happy to get that information to you, 
in terms of those high-value targets that have been captured 
with U.S. intelligence support.
    Vice Chairman Chambliss. I submit to you the answer to that 
is one. And it's Warsame, who was put on a ship for 60 days and 
interrogated.
    Thank you.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman.
    I want to point out that I'm going to try and enforce the 
eight minutes. If you hear a tapping, it is not personal.
    Senator Rockefeller.
    Senator Rockefeller. Thank you, Madam Chair.
    Welcome, Mr. Brennan. And if confirmed, you're going to 
lead an extraordinary agency with extraordinary people who 
perform extraordinary services, most of them totally unknown by 
the American people. Most people don't think about that--what 
it is to do a life of public service and never have anything 
known. Those of us who sit up here do a life of public service 
and want everything that we do to be known. It's how we get 
elected. It's a very different ethic in the Central 
Intelligence Agency and all intelligence agencies, and I 
respect it very much.
    I want to go to the EITC--sorry; that's Earned Income Tax 
Credit--to the enhanced interrogation techniques. Well, I'm for 
both. Well, I'm not for the second, but for the first.
    You talk about the 6,000 pages. What I want to say, and 
when the second round comes, I will, I'm going to pour out my 
frustration on dealing with the Central Intelligence Agency, 
and dealing with various administrations, about trying to get 
information.
    Why was it that they felt that we were so unworthy of being 
trusted? Why was it they were willing to talk to Pat Roberts 
and me, or Saxby Chambliss and Dianne Feinstein, but not 
anybody else, until we literally bludgeoned them--Kit Bond and 
I--into agreeing to include everybody? Like, Carl Levin's not 
trustworthy? You know? I mean, it's amazing.
    And I pursue Dianne Feinstein's point about staff. When you 
go and you have, under the previous administration, a briefing 
with the President or the Vice President, or the head of the 
CIA, or others, you're not allowed to--I can remember driving 
with Pat Roberts, when he was Chairman and I was Vice Chairman, 
and we weren't allowed to talk to each other driving up or 
driving back. You weren't allowed to do that.
    Staff were a part of nothing. You have to understand that 
you're surrounded by people who work with you and fill you in--
people who are experts. We are, too. But they've got to be part 
of this. They've got to be part of--when the OLC comes, it 
should come to them, also. I strongly support the Chairwoman's 
view on that.
    Now, in the enhanced interrogation techniques matter, a 
handful of former senior CIA officials who were personally 
invested--and are personally invested--in defending the CIA's 
detention and interrogation program, largely because their 
professional reputations depend on it, depend on it.
    [Inaudible] to speak for the CIA and its workforce on this 
issue, and I think it does all a great disservice. In my 
office, you and I discussed the Committee's landmark report on 
this program. You do understand that this took six years to 
write--not just 6,000 pages, but six years to write, perhaps 
longer--23,000, 30,000 footnotes. Why did we do this? We did 
this because we heard nothing from the Intelligence Agency. We 
had no way of being briefed. They would not tell us what was 
going on. So we had to do our own investigation, and we're 
pretty good at it.
    And when you read those first 350 pages, you told me that 
you were shocked at some of what you read. You did not know 
that. And that, to me, is shocking--but not to condemn anybody; 
simply says that has to be fixed, and changed forever. There 
never can be that kind of situation again, where we have to 
tell you what's going wrong in your Agency, and thus 
demoralizing some of the people in your Agency who want to be 
relieved of the burden and the taint of bad techniques in 
interrogation. They suffer from that.
    And yet, nobody would talk with us about that. We had to 
get that information on our own. It's a magnificent piece of 
work, and I think it's a piece of history; it'll go down in 
history because it will define the separation of powers as 
between the intelligence committees of the House and Senate, 
and the Agency and others that relate to it.
    I'm also very aware that this is all crucial to the 
President's authority. Not just on the more modern question of 
the day about drones. But, you know, that determination is made 
by one person and one person alone. And if there is a breakdown 
in protocol, if there is a breakdown in line of command in 
reacting, therefore, into something which is not good, where 
there's too much collateral damage, I think, for the most part, 
I would agree with the Chairwoman--I believe she said this--
that the work of the drone had been fairly safe. However, any 
collateral damage is unacceptable. And that has to be the 
purpose of the Agency.
    And therefore, this detention and interrogation program, 
I've got to say, it was--the people who ran it were ignorant of 
the topic; executed by personnel without relevant experience, 
managed incompetently by senior officials who did not pay 
attention to crucial details, and corrupted by personnel with 
pecuniary conflicts of interest. It was sold to the 
policymakers and lawyers of the White House, the Department of 
Justice, and Congress with grossly-inflated claims of 
professionalism and effectiveness; so-called ``lives saved.''
    It was a low point in our history. And this document, this 
book, should change that forever. I would hope very much that 
you would, if you are confirmed, which I hope you will be, that 
you will make parts of this at your discretion, required 
reading for your senior personnel so they can go through the 
same experience that you went through. Are you willing to do 
that?
    Mr. Brennan. Yes, Senator. I am looking forward to taking 
advantage of whatever lessons come out of this chapter in our 
history and this Committee's report.
    Senator Rockefeller. How do you cross-reference--and tell 
me when I'm out of time.
    Chairman Feinstein. Eight seconds. No, a minute and eight 
seconds.
    Senator Rockefeller. A minute and eight seconds, yes.
    Chairman Feinstein. Right; a long time.
    Senator Rockefeller. The cross-referencing of the EIT 
disaster and the future of the drone, and the decisions that--
only the President, of course, can authorize that--but the 
decision sometimes is passed down, and it has to be passed down 
in a very accurate manner. And there have to be a protocol, 
which is exact--more exact, even, than the interrogation 
techniques, because I think that's probably been put to bed 
just a bit; it's beginning to get straightened out.
    But the drones are going to grow. There's going to be more 
and more of that warfare--not just by us, but by other 
countries, including, perhaps, by people from within our own 
country. So the protocol of that, insofar as it would refer to 
a particular agency, is going to have to be exact, and 
directed, and of particular excellence and exactitude. How will 
that happen?
    Mr. Brennan. Senator, you make an excellent point, and 
that's what I'm most interested in--is finding out what went 
wrong. If this report is, as stated, accurate, what went wrong 
in the system where there were systemic failures; where there 
was mismanagement or inaccurate information that was put 
forward?
    Because there are covert activities that are taking place, 
you know, today, under the direction and management of the CIA. 
And I would have the obligation to make sure I could say to 
this Committee that all of those covert action programs are 
being run effectively, they're being well managed, they're 
being overseen, and that the measures of effectiveness, the 
results of those programs, are an accurate and fair 
representation of what actually is happening.
    This report raises serious questions about whether or not 
there are serious systemic issues that are at play here. I 
would need to get my arms around that, and that would be one of 
my highest priorities, if I were to go to the Agency.
    Senator Rockefeller. I thank you. Thank you, Chair.
    Chairman Feinstein. Thank you, Senator Rockefeller.
    Senator Burr.
    Senator Burr. Thank you, Chair.
    Mr. Brennan, welcome. Thank you for your long history of 
public service; and more importantly, to your family--thank you 
for your willingness to put up with his hobby.
    Most, if not all, of the intelligence that our Committee 
receives is the finished analysis that's derived from source 
reports and other raw intelligence materials that we don't 
see--and I might say, we don't need to see--all of.
    In order to ensure that we can perform our oversight duties 
of the Intelligence Committee, would you agree that the 
Committee should be able to review all analytical product, if 
requested?
    Mr. Brennan. On the face of that question, yes. My answer 
would be yes. However, I would have to take a look at the 
issues it involved in terms of, you know, what are we talking 
about, in terms of access to that analytic product--whether 
it's all staff, all Committee Members, whatever.
    I just can't make a commitment to that. But your intention, 
and what I think your objective is, I fully support, in terms 
of making sure this Committee has the breadth of analytic 
expertise available from the Agency.
    Senator Burr. As we go forward, there may be times that the 
Committee will need the raw intelligence to judge the accuracy 
of analytical product that we're provided. If confirmed, will 
you provide the raw intelligence on those occasions when the 
Committee requests it?
    Mr. Brennan. Senator, I would give every request from this 
Committee for access to that information full consideration. 
That's my commitment to you.
    Senator Burr. Do you agree that it's a function of this 
Committee's oversight that occasionally we would need to look 
at it?
    Mr. Brennan. I would agree that it is probably a function 
of your oversight that you would have interest in doing that, 
and it would be my obligation, I think, as director of CIA, to 
try to be as accommodating as possible to that interest, while 
at the same time trying to respect whatever considerations need 
to be taken into account as we do that.
    Senator Burr. Mr. Brennan, as you know, the Committee is 
conducting a thorough inquiry into the attacks in Benghazi, 
Libya. In the course of this investigation, the CIA has 
repeatedly delayed, and in some cases, flatly refused, to 
provide documents to this Committee. If confirmed, will you 
assure this Committee that this refusal will never happen 
again?
    Mr. Brennan. I can commit to you, Senator, that I would do 
everything in my ability and my authority to be able to reach 
an accommodation with this Committee that requests documents, 
because an impasse between the Executive Branch and the 
Legislative Branch on issues of such importance is not in the 
interest of the United States Government. And so, it would be 
my objective to see if we could meet those interests.
    At the same time, our founding fathers did, sort of, 
separate the branches of government--Judicial, Legislative, and 
Executive. And so, I want to be mindful of that separation, but 
at the same time, meet your legitimate interests.
    Senator Burr. They also gave us the ``power of the purse.''
    Mr. Brennan. They certainly did, Senator; I'm fully aware 
of that.
    Senator Burr. I would suggest that that's the only tool, 
and it's one we hate to use.
    Mr. Brennan. Yes.
    Senator Burr. Do you think that there's any situation where 
it's legal to disclose to the media, or to the public, details 
of covert action programs?
    Mr. Brennan. I do not think it is ever appropriate to 
improperly disclose classified information to anybody who does 
not have legitimate access to it and has the clearances for it.
    Senator Burr. Let me clarify. I didn't ask for classified 
information. I specifically said ``covert action programs.''
    Mr. Brennan. By definition, covert action programs are 
classified, Senator.
    Senator Burr. I realize that.
    Mr. Brennan. Right. So, I do not believe it is appropriate 
to improperly disclose any of those details related to covert 
action programs.
    Senator Burr. Let me point out that in the Committee pre-
hearing questions, you didn't really answer a question that 
dealt with specific instances where you were authorized to 
disclose classified information to a reporter. So, could you 
provide for the Committee any times that you were given the 
authority to release classified information?
    Mr. Brennan. I have never provided classified information 
to reporters. I engaged in discussions with reporters about 
classified issues that they might have had access to because of 
unfortunate leaks of classified information, and I frequently 
work with reporters, if not editors, of newspapers, to keep out 
of the public domain some of this country's most important 
secrets.
    And so I engage with them on those issues. But after 
working in the intelligence profession for 30 years and being 
at the CIA for 25 years, I know the importance of keeping those 
secrets secret.
    Senator Burr. Have any of your conversations with those 
reporters or media consultants about intelligence matters been 
recorded, or were there transcriptions of it?
    Mr. Brennan. I believe there have been. I've been on news 
network shows, and I have been, you know, engaged in 
conversations on the telephone and other things that I 
presume--and I know--that they have been recorded on occasion.
    Senator Burr. Have you specifically asked for them not to 
be recorded?
    Mr. Brennan. Whenever I talk to reporters, I do so at the 
request of the White House Press Office, and there are ground 
rules that are established there. And I'm not the one to 
establish those ground rules about whether or not they would be 
recorded or not.
    Senator Burr. You said in your responses to pre-hearing 
questions that in exceptional circumstances, it may be 
necessary to acknowledge classified information to a member of 
the media.
    Did you tell media commentators that the United States had, 
and I quote, ``inside control'' or ``inside information'' on 
the AQAP bomb plot in May of last year?
    Mr. Brennan. I think what you're referring to, Senator, is 
when I had a teleconference with some individuals, former 
government officials from previous administrations, who were 
going to be out on talk shows on the night that an IED was 
intercepted.
    And so, I discussed with them that some of the aspects of 
that--because I was going on the news network shows the 
following day--I wanted to make sure they understood the nature 
of the threat, and what it was, and what it wasn't.
    And so, what I said at the time--because I said I couldn't 
talk about any operational details, and this was shortly after 
the anniversary of the bin Laden takedown--I said there was 
never a threat to the American public as we had said so 
publicly, because we had inside control of the plot, and the 
device was never a threat to the American public.
    Senator Burr. Did you think that that comment actually 
exposed sources or methods?
    Mr. Brennan. No, Senator, I did not. And there is an 
ongoing investigation, I must say, right now about the 
unfortunate leak of information that was very, very damaging. 
And I voluntarily cooperated with the Department of Justice on 
that and have been interviewed on it.
    Senator Burr. Well, let me just say, as one that was 
overseas shortly after that, I certainly had, on numerous 
occasions, U.S. officials who expressed to me the challenges 
they've gone through to try to make apologies to our partners. 
And I personally sat down in London to have that apology 
conversation, and it was very disruptive.
    Very quickly--did you provide any classified or otherwise 
sensitive information to reporters or media consultants 
regarding the details of the Abbottabad raid?
    Mr. Brennan. No, I did not, Senator.
    Senator Burr. Then, do you know who disclosed information 
that prompted the Secretary of Defense, Robert Gates, to advise 
the White House to tell people to shut up?
    Mr. Brennan. You would have to ask Secretary Gates what he 
was referring to at that time, because I don't know.
    Senator Burr. In conclusion, let me just go back to the 
initial questions that the Chair referred to. And in that, I 
think you might have taken her request on documents to be the 
documents that we've got outstanding right now; I think she was 
referring to the future.
    But let me just say I hope that you take the opportunity, 
if you haven't already, to take back to the administration that 
it is absolutely essential that the documents this Committee 
has requested on Benghazi be supplied before the confirmation 
moves forward. I realize--I'm not saying that you were part of 
it, but it is absolutely essential that we get those documents 
before we begin a new administration at the CIA. And I hope you 
will deliver that message. I thank you.
    Mr. Brennan. Thank you, Senator.
    Chairman Feinstein. Thank you very much, Senator.
    Senator Wyden.
    Senator Wyden. Thank you, Madam Chair. And Mr. Brennan, 
thank you for our discussions and for the joint meeting that 
you had with several of us on the Committee last week.
    As we discussed then, I believe the issues before us really 
have nothing to do with political party, and have everything to 
do with the checks and balances that make our system of 
government so special.
    Taking the fight to al-Qa'ida is something every Member of 
this Committee feels strongly about. It's the idea of giving 
any president unfettered power to kill an American without 
checks and balances that's so troubling. Every American has the 
right to know when their government believes it's allowed to 
kill them.
    And ensuring that the Congress has the documents and 
information it needs to conduct robust oversight is central to 
our democracy. In fact, the Committee was actually created, in 
large part, in response to lax oversight of programs that 
involved targeted killings.
    So it was encouraging last night when the President called 
and indicated that, effective immediately, he would release the 
documents necessary for Senators to understand the full legal 
analysis of the President's authority to conduct the targeted 
killing of an American. What the President said is a good first 
step towards ensuring the openness and accountability that's 
important, and you heard that reaffirmed in the Chair's strong 
words right now.
    Since last night, however, I have become concerned that the 
Department of Justice is not following through with the 
President's commitment just yet. Eleven United States Senators 
asked to see any and all legal opinions, but when I went to 
read the opinions this morning, it is not clear that that is 
what was provided.
    And moreover on this point, with respect to lawyers, I 
think the concern is that there's a double standard. As the 
National Security Advisor--you volunteered, to your credit, you 
weren't a lawyer--you ask your lawyers and your experts to help 
you. And we're trying to figure out how to wade through all 
these documents, and one of the reasons why I'm concerned that 
it's not yet clear that what the President committed to has 
actually been provided.
    And finally on this point, the Committee has been just 
stonewalled on several other requests, particularly with 
respect to secret law. And I'm going to leave this point simply 
by saying I hope you'll go back to the White House and convey 
to them the message that the Justice Department is not yet 
following through on the President's commitment. Will you 
convey that message?
    Mr. Brennan. Yes, I will, Senator.
    Senator Wyden. Very good.
    Let me now move to the public side of oversight--making 
sure that the public's right to know is respected. One part of 
oversight is Congressional oversight, and our doing our work 
here. The other is making sure that the American people are 
brought into these debates; just like James Madison said--this 
is what you need to preserve a republic.
    And I want to start with the drone issue. In a speech last 
year, the President instructed you to be more open with the 
public about the use of drones to conduct targeted killings of 
al-Qa'ida members.
    So, my question is what should be done next, to ensure 
public conversation about drones, so that the American people 
are brought into this debate and have a full understanding of 
what rules the government is going to observe when it conducts 
targeted killings?
    Mr. Brennan. Well, I think this hearing is one of the 
things that can be done, because I think this type of discourse 
between the Executive and the Legislative Branch is critically 
important.
    I believe that there needs to be continued speeches that 
are going to be given by the Executive Branch to explain our 
counterterrorism programs. I think there is a misimpression on 
the part of some of the American people who believe that we 
take strikes to punish terrorists for past transgressions--
nothing could be further from the truth. We only take such 
actions as a last resort to save lives when there's no other 
alternative to taking an action that's going to mitigate that 
threat.
    So we will need to make sure that there is an 
understanding. And the people that were standing up here today, 
I think they really have a misunderstanding of what we do as a 
government, and the care that we take, and the agony that we go 
through to make sure that we do not have any collateral 
injuries or deaths.
    And as the Chairman said earlier, the need to be able to go 
out and say that publicly and openly, I think, is critically 
important, because people are reacting to a lot of falsehoods 
that are out there. And I do see it as part of my obligation, 
and I think it's the obligation of this Committee, to make sure 
the truth is known to the American public and to the world.
    Senator Wyden. Mr. Brennan, I'm also convinced there are 
parts of drone policy that can be declassified consistent with 
national security. And I hope that you will work with me on 
that if you are confirmed.
    Let me ask you several other questions with respect to the 
President's authority to kill Americans. I've asked you how 
much evidence the President needs to decide that a particular 
American can be lawfully killed, and whether the administration 
believes that the President can use this authority inside the 
United States. In my judgment, both the Congress and the public 
needs to understand the answers to these kinds of fundamental 
questions.
    What do you think needs to be done to ensure that members 
of the public understand more about when the government thinks 
it's allowed to kill them, particularly with respect to those 
two issues--the question of evidence, and the authority to use 
this power within the United States?
    Mr. Brennan. I have been a strong proponent of trying to be 
as open as possible with these programs as far as our 
explaining what we're doing. What we need to do is optimize 
transparency on these issues, but at the same time, optimize 
secrecy and the protection of our national security. I don't 
think that it's one or the other; it's trying to optimize both 
of them.
    And so, what we need to do is make sure we explain to the 
American people: what are the thresholds for action; what are 
the procedures, the practices, the processes, the approvals, 
the reviews.
    The Office of Legal Counsel advice establishes the legal 
boundaries within which we can operate. It doesn't mean that we 
operate at those outer boundaries. And, in fact, I think the 
American people would be quite pleased to know that we've been 
very disciplined and very judicious, and we only use these 
authorities and these capabilities as a last resort.
    Senator Wyden. One other point with respect to public 
oversight: if the Executive Branch makes a mistake and kills 
the wrong person or a group of the wrong people, how should the 
government acknowledge that?
    Mr. Brennan. I believe we need to acknowledge it. I believe 
we need to it knowledge it to our foreign partners. We need to 
acknowledge it publicly.
    There are certain circumstances where there are 
considerations to be taken into account, but as far as I'm 
concerned, if there is this type of action that takes place, in 
the interest of transparency, I believe the United States 
Government should acknowledge it.
    Senator Wyden. And acknowledge it publicly?
    Mr. Brennan. That would be ideal, and that would be the 
objective of the program.
    Senator Wyden. One last question if I might: in my letter 
to you three weeks ago, I noted that I've been asking for over 
a year to receive the names of any and all countries where the 
Intelligence Community has used its lethal authorities.
    If confirmed, would you provide the full list of countries 
to the Members of this Committee and our staff?
    Mr. Brennan. I know that this is an outstanding request on 
your part. During our courtesy call, we discussed it. If I were 
to be confirmed as director of CIA, I would get back to you, 
and it would be my intention to do everything possible to meet 
this Committee's legitimate interests and requests.
    Senator Wyden. Well, I'm going to wrap up just with one 
sentence on this point, Chair Feinstein.
    It's a matter of public record, Mr. Brennan, that the raid 
that killed Osama bin Laden was carried out under the authority 
of CIA Director Leon Panetta. So that tells you right there 
that the Intelligence Community's lethal authorities have been 
used in at least one country.
    I want to hear you say that if these authorities have been 
used in any other countries, that you'll provide this Committee 
with the full list. Now, will you give us that assurance?
    Mr. Brennan. You're talking about a historical list; are 
you not, Senator Wyden--as far as anytime, anywhere, that the 
CIA was involved in such a lethal provision?
    Senator Wyden. Yes.
    Mr. Brennan. I would have to go back and take a look at 
that request. Certainly, anything that--if I were to go to CIA, 
and the CIA was involved in any type of lethal activity, I 
would damn well make sure that this Committee had that 
information; absolutely.
    Senator Wyden. That's a good start.
    Chairman Feinstein. Thank you very much, Senator Wyden.
    Senator Risch.
    Senator Risch. Thank you, Madam Chairman.
    Mr. Brennan, thank you for your service over the years.
    I want to follow up on a conversation you and I had in my 
office, and it touches on what Senator Burr asked you about a 
little bit, and that is the question of leaks.
    I was glad to hear you acknowledge in your opening 
statement how important it is that we avoid leaks of any kind, 
because they are dangerous, they endanger the lives of 
Americans, and they can't be tolerated in the business that 
we're in. And you agree with that, I gather?
    Mr. Brennan. Absolutely, Senator.
    Senator Risch. Okay. Well, I want to talk to you about a 
person who I believe, and I think you acknowledge, is one of 
the most dangerous people on the planet, and that's Ibrahim al-
Asiri. And the conversation that you had with Senator Burr was 
referring to the interview that you gave that talked about the 
plot that was uncovered that involved him. Do you recall that 
conversation with Senator Burr?
    Mr. Brennan. Yes, I do, Senator.
    Senator Risch. Okay. And I have in front of me the Reuters 
article that's dated May 18, 2012, describing your engagement 
with the media regarding Mr. Asiri and the plot; you're 
familiar with that article, I would assume?
    Mr. Brennan. I have read many articles, so I presume I read 
that one.
    Senator Risch. Well, this particular one is one that's 
similar, I think, as far as the leak itself and how we got to 
where we are on this.
    I want to quote from the article. It says, ``At about 5:45 
p.m., Eastern Daylight Time, on Monday, May 7, just before the 
evening newscasts, John Brennan, President Barack Obama's top 
White House advisor on counterterrorism, held a small, private 
teleconference to brief former counterterrorism advisors who 
have become frequent commentators on TV news shows.''
    Is that an accurate statement?
    Mr. Brennan. That is an accurate statement, Senator. Yes.
    Senator Risch. And can you tell me--who was involved in 
that conversation; who was involved in that interview?
    Mr. Brennan. I believe that the people who were on that 
phone included one of my predecessors, Fran Townsend; Roger 
Cressey; Juan Zarate; Richard Clarke. I think these are 
individuals who have served in the government and are 
counterterrorism professionals.
    Senator Risch. Any others you can think of?
    Mr. Brennan. I do not remember the others.
    Senator Risch. Do you have notes from that conversation?
    Mr. Brennan. There are notes, yes--that people took at 
that, yes.
    Senator Risch. Have those been turned over to the Justice 
Department?
    Mr. Brennan. The Justice Department--as I said, I 
voluntarily and eagerly engaged in that investigation, and they 
have----
    Senator Risch. That wasn't the question. Were those notes 
turned over?
    Mr. Brennan. Everything that was available on that has been 
turned over to the Department of Justice; absolutely, Senator.
    Senator Risch. Did you turn those notes over?
    Mr. Brennan. My office turned over everything that was 
available about that, yes.
    Senator Risch. Who took those notes?
    Mr. Brennan. Senator, I was not taking notes at the time. 
There were people, also, from the White House, who were on that 
conversation, as we do with all of these types of engagements.
    Senator Risch. And who were the people that were involved 
in that conversation?
    Mr. Brennan. Aside from the reporters? There was somebody 
from the White House Press Office and someone from the 
Counterterrorism directorate.
    Senator Risch. You don't know the peoples' names?
    Mr. Brennan. I do. They were Nick Rasmussen and Caitlin 
Hayden.
    Senator Risch. Those are the two people from the White 
House that were involved; is that----
    Mr. Brennan. That's my recollection of who was involved in 
that conference call, yes.
    Senator Risch. May 7th was the date that the incident 
occurred; is that correct?
    Mr. Brennan. The date of the conversation with those 
reports?
    Senator Risch. Excuse me--the date of the underlying event 
that you were talking about involving Mr. Asiri.
    Mr. Brennan. Now you're talking about Mr. Asiri--in terms 
of being the person who was responsible for putting together 
the IED?
    Senator Risch. Correct.
    Mr. Brennan. I believe May 7th was about the right date, 
yes.
    Senator Risch. And can you tell me why you felt compelled 
to release that information to these people on May 7, 2012?
    Mr. Brennan. Well, as I explained on the network news the 
following morning, and as we said publicly, that device was not 
a threat to the American public at the time of the bin Laden 
anniversary----
    Senator Risch. I don't want to cut you off, but that's not 
the question.
    Mr. Brennan. I thought it was, Senator. But go ahead.
    Senator Risch. No. The question was why did you feel 
compelled to hold this press conference and divulge that 
information at that time on that day?
    Mr. Brennan. It wasn't a press conference; it was a 
teleconference with these individuals. And I know they were 
going out on TV that evening and I wanted to make sure that 
these individuals with that background on counterterrorism were 
able to explain appropriately to the American people as we've 
been talking about--the importance of making sure the American 
people were aware of the threat environment and what we're 
doing on the counterterrorism front.
    Senator Risch. And they were going to go on TV that evening 
to discuss this event?
    Mr. Brennan. Yes, because it had already broken. The news 
reports had broken that afternoon, Senator, and so there was a 
flurry of activity and press reporting that was going on. These 
individuals reached out to us, as they normally do. So this was 
just a routine engagement with the press, as we normally do 
when these things are made public.
    Senator Risch. The next paragraph says, ``According to five 
people familiar with the call, Brennan stressed that the plot 
was never a threat to the U.S. public or air safety because 
Washington had inside control over it.''
    Is that an accurate statement?
    Mr. Brennan. Inside control of the plot, yes, that's 
exactly right.
    Senator Risch. Okay. So, based on that, one would know that 
we had something inside; is that a fair statement?
    Mr. Brennan. From that statement, it is known that that 
IED, at the time, was not a threat to the traveling public, 
because we had said publicly that there was no active plot at 
the time of the bin Laden anniversary. That's correct.
    Senator Risch. Would you agree with me that that disclosure 
resulted in the outing of an asset that shouldn't have been 
outed?
    Mr. Brennan. Absolutely not, Senator. I do not agree with 
you, whatsoever.
    Senator Risch. Well, how can you say that?
    Mr. Brennan. What I'm saying is that we were explaining to 
the American public why that IED was not, in fact, a threat at 
the time that it was in the control of individuals. When we say 
``positive control,'' ``inside control,'' that means that we 
have, in fact, that operation, either environmentally or any 
number of ways. It did not in any way reveal any type of 
classified information.
    And I told those individuals--and there are transcripts 
that are available of that conversation--``I cannot talk to you 
about the operational details of this, whatsoever.''
    Senator Risch. Having used the words that you used of 
``inside control,'' it isn't much of a leap to determine that 
somehow you had a handle on it.
    Mr. Brennan. It's not much of a leap to know that if in 
fact we said this IED was, in fact, obtained, and it was not a 
threat at the time, that there was some type of inside control. 
It is almost a truism.
    Senator Risch. Well, having said that, it seems to me that 
the leak that the Justice Department is looking for is right 
here in front of us. And you disagree with that?
    Mr. Brennan. I disagree with you vehemently, Senator. And 
I've talked to the Department of Justice. As I said, I 
conducted interviews with them. And, you know, I am a witness 
in that, as many other people are. And as you know, there's 
witness and subject and target. I'm not a subject. I'm not a 
target. I am a witness. Because I want to make sure whoever 
leaked this information that got out to the press and that 
seriously did disrupt some very sensitive operational equities 
on the part of some of our international partners--that never 
should have happened.
    Senator Risch. And you're in agreement with that--that this 
was a serious flaw in what should have happened; is that 
correct?
    Mr. Brennan. It's a serious flaw that it got out to the 
press before that operation was, in fact, concluded; 
absolutely. And my discussion with those individuals that 
night, it already was out in the press.
    Senator Risch. You would agree with me that on the day that 
we get Mr. Asiri, it's going to be either a very, very good 
day, or, if he gets us first, it's going to be a very, very bad 
day for the American people, and particularly for anyone who 
was involved in a leak concerning him.
    Mr. Brennan. Senator, I live this every day and night.
    Senator Risch. I understand.
    Mr. Brennan. I go to bed at night worrying that I didn't do 
enough that day to make sure I could protect the American 
people. So, when Mr. Asiri is brought to justice, one way or 
another, it will be because of the work that's been done over 
the past number of years by some very brave Americans in CIA 
and other places.
    So, believe me, I am focused as a laser on the issue of the 
IED threat, AQAP, and Mr. al-Asiri.
    Senator Risch. I have more, but my time is up.
    Thank you, Madam Chairman.
    Chairman Feinstein. Thank you, Senator Risch.
    Senator Mikulski.
    Before you start, Senator, a vote is due to start at four. 
It's now five after four. Senator Chambliss went to vote; as 
soon as he returns, I will go. And we will just keep this 
going. So, Members, be guided by that.
    The vote just started. Please go ahead.
    Senator Mikulski. Mr. Brennan, first of all, welcome to the 
Committee. And in the short time I have--you mentioned your 
wife, Kathy; could you introduce us to her?
    Mr. Brennan. Yes, this is my wonderful, beautiful wife, 
Kathy, who's been my spouse for 34 years and my partner in my 
work. And my brother, Thomas, also is here, from New Jersey.
    Senator Mikulski. Well, we'd like to welcome you. And we 
know that not only will you serve, but your entire family has 
served, and will continue to serve. And I'm going to echo the 
remarks of my colleague, Senator Warner, thanking the people of 
the Central Intelligence Agency for what they do every day in 
every way, working often in a way that is not known, not 
recognized, and quite frankly, not always appreciated.
    So, let me get to my questions. I have been concerned for 
some time that there is a changing nature of the CIA, and that 
instead of it being America's top human spy agency to make sure 
that we have no strategic surprises, that it has become, more 
and more, executing paramilitary operations.
    And I've discussed this with you in our conversation. How 
do you see this? I see this as mission-creep. I see this as 
overriding the original mission of the CIA, for which you're so 
well versed, and more a function of the Special Operations 
Command.
    Could you share with me how you see the CIA and what you 
think about this militarization of the CIA that's going on?
    Mr. Brennan. Thank you, Senator, and thank you----
    Senator Mikulski. You might disagree with me, and I welcome 
your disagreement is you so do so.
    Mr. Brennan. Senator, the principal missions of the Agency 
is to collect intelligence, uncover those secrets, as you say, 
to prevent those strategic surprises, and to be the best 
analytic component within the U.S. Government, to do the all-
source analysis that CIA has done so well for many, many years.
    At times, the President asks and directs the CIA to do 
covert action. That covert action can take any number of forms, 
to include paramilitary. And, as we've discussed here today on 
the counterterrorism front, there are things that the Agency 
has been involved in since 9/11 that, in fact, have been a bit 
of an aberration from its traditional role.
    One of the things that I would do if I would go back to the 
Agency is to take a look at that allocation of mission within 
CIA--the resources that are dedicated to this, and, as we had 
the discussion when I paid my courtesy call, I am concerned 
that looking at the world, which is a very big place, we need 
to make sure we have the best intelligence collection 
capabilities possible and the best analytic capabilities 
possible. And the CIA should not be doing traditional military 
activities and operations.
    Senator Mikulski. Well, I appreciate that and look forward 
to working with you on this to really identify what's up with 
the CIA, and to DoD, which then takes me to the issue of cyber 
threat.
    Both Secretary Panetta, General Dempsey, and so on--and we, 
in your current role at the White House--have talked about the 
cyber threat. You were a big help in trying to help us get the 
cyber legislation passed.
    Now, tell us what you think is the role of the CIA in 
dealing with the cyber threat in the area of human intelligence 
with the CIA? You have a unique insight into it. We know what 
NSA does; we know what Homeland Security is supposed to do; 
tell us where you see the CIA in this.
    Mr. Brennan. Well, first of all, the cyber threat that this 
country faces is one of the most insidious and one of the most 
consequential to our national security, and one that I think 
that our government as a whole and this body, the Congress, 
really needs to be focused on and do everything possible to 
prevent a devastating attack against this country because of 
our vulnerabilities on the cyber front.
    CIA's traditional mission on the collection front is to try 
to determine the plans and intentions of foreign governments, 
foreign groups, sub-national groups, and others.
    Learning about those plans and intentions, and the 
development of capabilities in the cyber world, is something 
that CIA, I think, is best placed to do, so that we have an 
understanding of what foreign countries are doing, what 
organized criminal organizations are doing, what sub-national 
groups are doing, and the nature of the threat to us.
    Then, in addition, the analysts at CIA can take that 
information, working with the rest of the Community, to make 
sure that policymakers have a good sense of the nature of the 
threat and some potential mitigation strategies. And then, 
working with NSA, Department of Homeland Security, and others, 
put together that structure that's going to make this country 
resistant and resilient to those attacks.
    Senator Mikulski. Well, Mr. Brennan, I really look forward 
to working with you on this, because this cuts across all the 
agencies--those that have responsibility for work outside of 
this country, inside this country, and yet, we all have to be 
doing--what we're--to use the Marine Corp saying--the best that 
we're best at and best that we're most needed for.
    I consider this one of the greatest threats and one of the 
greatest vulnerabilities, because we failed to pass the 
legislation ourselves. We can't stop what foreign predators 
want to do. I mean, we can divert; identify an attack. But we 
are making ourselves vulnerable.
    Now, I want to get to the job of the CIA director. I'm 
going to be blunt--and this will be no surprise to you, sir--
but I've been on this Committee for more than 10 years, and 
with the exception of Mr. Panetta, I feel I've been jerked 
around by every CIA director. I've either been misled, 
misrepresented, had to pull information out--often at the most 
minimal kind of way; from Tenet, with his little aluminum rods, 
to tell us that we had weapons of mass destruction in Iraq, to 
Porter Goss--not forthcoming.
    You know the problems we've had with torture. The Chair has 
spoken eloquently about it, all the way. And quite frankly, 
during those questions, they were evaded; they were distorted, 
et cetera.
    So, my question to you is: knowing your background, knowing 
your Jesuit education, knowing what I think your values are, 
can I have your word that you're going to be very forthcoming 
with this Committee, to speak truth to power, to speak truth 
about power, even when it's uncomfortable, or where we're going 
to have to probe in a way that is not an easy way to go?
    Mr. Brennan. Honesty, truthfulness, was a value that was 
inculcated in me in my home in New Jersey, from my parents, 
Owen and Dorothy. It still is to this day.
    Honesty is the best policy. None of us are perfect beings. 
I'm far from perfect. But, Senator, I would commit that I would 
be honest with this Committee and do everything possible to 
meet your legitimate needs and requirements. As I think I've 
told you before, I know that you are a very proud senator of 
one of the jewels in the Intelligence Community, NSA, which 
resides in Maryland, but it would be my objective to make CIA 
your favorite intelligence agency and push Keith Alexander 
aside.
    [Laughter.]
    Senator Mikulski. Well, I think you're pushing your luck 
now.
    Thank you very much.
    Vice Chairman Chambliss. Senator Levin.
    Senator Levin. Thank you.
    Thank you for your willingness to serve here, Mr. Brennan.
    You've said publicly that you believe waterboarding is 
inconsistent with American values; it's something that should 
be prohibited, and it goes beyond the bounds of what a 
civilized society should employ.
    My question is this: in your opinion, does waterboarding 
constitute torture?
    Mr. Brennan. The attorney general has referred to 
waterboarding as torture. Many people have referred to it as 
torture. The attorney general, premiere of law enforcement 
officer and lawyer of this country. And as you well know, and 
as we've had the discussion, Senator, the term ``torture'' has 
a lot of legal and political implications. It is something that 
should have been banned long ago. It never should have taken 
place in my view. And, therefore, if I were to go to CIA, it 
would never, in fact, be brought back.
    Senator Levin. Do you have a personal opinion as to whether 
waterboarding is torture?
    Mr. Brennan. I have a personal opinion that waterboarding 
is reprehensible, and it's something that should not be done. 
And, again, I am not a lawyer, Senator, and I can't address 
that question.
    Senator Levin. Well, you've read opinions as to whether or 
not waterboarding is torture. And I'm just--do you accept those 
opinions of the attorney general? That's my question.
    Mr. Brennan. Senator, you know, I've read a lot of legal 
opinions. I've read an Office of Legal Counsel opinion in the 
previous administration that said in fact waterboarding could 
be used. So, from the standpoint of that, you know, I cannot 
point to a single legal document on this issue.
    But, as far as I'm concerned, waterboarding is something 
that never should have been employed, and, as far as I'm 
concerned, never will be, if I have anything to do with it.
    Senator Levin. Is waterboarding banned by the Geneva 
Conventions?
    Mr. Brennan. I believe the attorney general also has said 
that it's contrary, in contravention, of the Geneva Convention.
    Again, I am not a lawyer, or a legal scholar, to make a 
determination about what is in violation of an international 
convention.
    Senator Levin. Mr. Rodriguez, the former CIA deputy 
director for operations, was asked about his personal moral or 
ethical perspective on these enhanced interrogation techniques, 
including waterboarding.
    He said that he knew of--and these are his words--``I know 
that many of these procedures were applied to our own 
servicemen. Tens of thousands of U.S. soldiers had gone through 
this.''
    Now, as we investigated, at Senate Armed Services 
Committee, in our 2008 report, these so-called ``Survival, 
Evasion, Resistance, and Escape''--or ``SERE''--techniques 
referred to by Mr. Rodriguez were used to train members of our 
military. They were never intended to be used by U.S. 
interrogators.
    These techniques were based on Chinese Communist 
interrogation techniques used during the Korean War to elicit 
confessions, were developed to expose U.S.--and the use of or 
the training of U.S. personnel and exposing of them for a few 
moments to these techniques which helped to--was meant to help 
them survive in the event they were captured and the event they 
were subjected to these techniques.
    My question to you is this: is there any comparability 
between a friendly trainer in the United States exposing our 
troops to abuses--these SERE techniques, including 
waterboarding--for a few moments under close supervision; is 
there any possible comparability to that to using these 
techniques on an enemy in an effort to extract intelligence?
    Mr. Brennan. They are for completely different purposes and 
intentions. I do not see any comparability there.
    Senator Levin. Now, the Chairman and I issued a report, or 
made a statement, on April 27, 2012. This also began with a 
statement of Mr. Rodriguez.
    And here's what he said: ``Information provided by CIA 
detainees Khalid Sheikh Mohammed and Abu Faraj al-Libbi about 
bin Laden's courier being the lead information that eventually 
led to the location of bin Laden's compound and the operation 
that led to his death.''
    That's what Rodriguez said. We said that statement is 
wrong. The original lead information had no connection to CIA 
detainees. The CIA had significant intelligence on the courier 
that was collected from a variety of classified sources. While 
the CIA's enhanced interrogation techniques were used against 
KSM and al-Libbi, the pair provided false and misleading 
information during their time in CIA custody.
    Now, my question to you is: are you aware of any 
intelligence information that supports Mr. Rodriguez's claim 
that the lead information on the courier came from KSM and al-
Libbi?
    Mr. Brennan. I have not reviewed the intelligence 
thoroughly, but I am unaware of any.
    Senator Levin. Next, Michael Hayden, former CIA director, 
on May 3, 2011, said that ``What we got, the original lead 
information, began with information from CIA detainees at black 
sites.''
    The Chairman and I issued, in the same statement, the 
following--that the statement of the former attorney general, 
Michael Mukasey, was wrong. Do you have any information to 
disagree with our statement?
    Mr. Brennan. I do not.
    Senator Levin. The third statement that we quoted in our 
report--out of Michael Hayden, former CIA director: ``What we 
got, the original lead information, began with''--excuse me; 
that was Mr. Hayden that I was asking you about, not Mr. 
Mukasey. Your answer is the same, I assume?
    Mr. Brennan. Yeah, I do not know. I'm unaware.
    Senator Levin. You don't have any information to the 
contrary?
    Mr. Brennan. Right.
    Senator Levin. Now Michael Mukasey, former attorney 
general, Wall Street Journal: ``Consider how the intelligence 
that led to bin Laden came to hand: it began with a disclosure 
from Khalid Sheikh Mohammed, who broke like a dam under 
pressure of harsh interrogation techniques that included 
waterboarding. He released a torrent of information, including 
eventually the name''--the name - ``of a trusted courier of bin 
Laden.''
    Our statement--that of the Chairman and myself--is that 
that statement is wrong. Do you have any information to the 
contrary?
    Mr. Brennan. Senator, my impression earlier on was that 
there was information that was provided that was useful and 
valuable, but, as I said, I've read now the first volume of 
your report, which raises questions about whether any of that 
information was accurate.
    Senator Levin. But I'm now referring not to the report, but 
to the statement that Chairman Feinstein and I issued on April 
27, 2012. We flat-out say that those statements are wrong.
    Mr. Brennan. Right.
    Senator Levin. Do you have any basis to disagree with us?
    Mr. Brennan. I do not.
    Senator Levin. Will you, when you become the CIA director, 
assuming you are confirmed, take the statement that we have 
issued and tell us whether or not you disagree with any of 
these statements that we have made about those statements of 
those three men; will you do that if you are confirmed?
    Mr. Brennan. I will look and consider that request, 
Senator. As I said, the report that this Committee has put 
together, I need to take a look at what CIA's response is to 
it. And that report raises serious questions about whether any 
worthwhile intelligence came from these individuals.
    Senator Levin. Will you include, in your review, a review 
of our joint statement and tell us whether, after your review, 
you disagree with anything that we've said; will you do that?
    Mr. Brennan. I would be happy to.
    Senator Levin. Now, there's one final point, and that has 
to do with a very famous document. And that has to do with a 
cable that came in that relates to the so-called ``Atta'' 
matter. Are you familiar with that issue?
    Mr. Brennan. Yes, I am, Senator.
    Senator Levin. The issue here is whether or not there ever 
was a meeting in Prague between Mohammed Atta, who is one of 
the people who attacked the Trade Center, and the Iraqi 
Intelligence.
    The cable that came in has been classified by the CIA, even 
though the report of--this is what the CIA did to the cable. 
(Holds up a piece of paper containing text that has mostly been 
redacted.)
    Now, will you check with the Czechs for the source of this 
cable and see if they have any objection to the release of this 
cable relative to the report of that meeting?
    Mr. Brennan. Yes, Senator. And since our courtesy call, I 
have looked into this issue, and I know that you and Director 
Petraeus were involved in a discussion on this. And I would be 
happy to follow up on it. But there does seem to be some 
concerns about release of the cable.
    Senator Levin. The unclassified report of the Intelligence 
Committee--which was not classified; was not redacted by the 
CIA--made at least four references to the Czech Intelligence 
Service providing the CIA with reporting, based on a single 
source, about this alleged meeting, which never took place. We 
knew it never took place. And yet, repeatedly--particularly the 
Vice President--made reference that there was a report of a 
meeting between these two.
    Now, it's very significant for the historical record here. 
We went to war based on allegations that there was a 
relationship between Iraq and the attackers--the 9/11 
attackers. It's very important that this cable be declassified. 
The only reason to keep it redacted and classified, frankly, is 
to protect an administration, not to protect sources and 
methods, because the sources and methods--if you will check 
with the Czechs, I'm sure they will tell you they have no 
objection to the release of that cable.
    My question to you is will you check with the Czechs, if 
you are confirmed, and determine whether they have any 
objection to the release of the cable, which makes reference to 
them?
    Mr. Brennan. Absolutely, Senator; I will.
    Senator Levin. Thank you. My time is up.
    Vice Chairman Chambliss. Thank you, Senator.
    Senator Coats.
    Senator Coats. Thank you, Mr. Chairman.
    Mr. Brennan, we acknowledge your experience, and I think 
that experience is important to have for the position that, if 
confirmed, you will occupy. I acknowledge your service to the 
country and your experience in this field. I think the 
President used that as one of the criteria, of course.
    You and I, when we talked earlier in a private talk, talked 
about the relationship that you want to have with this 
Committee--not just with the Chairman and the Vice Chairman, 
but with all the Committee Members. And I appreciate your 
answers on that, and you addressed it again today, in terms of 
a potential trust deficit or--you said that that's ``wholly 
unacceptable'' and that you would give straight answers and be 
blunt and candid.
    And you've been that today. It's not a prerequisite to be 
Mr. Congeniality to occupy the position of director of CIA, so 
I don't hold that as--in fact, it would be probably a red flag 
for me if somebody did have that award and wanted your 
position.
    The kind of issues that you have to deal with require 
straight talk, straight answers, and getting to the chase real 
quick. You said it's the ``New Jersey'' way. I'll accept that; 
it's bipartisan. Governor Christie exhibits the same kind of 
responses and has a pretty high approval rating.
    So, we will go forward with taking you at your word that 
we'll have the kind of relationship that we can have a blunt, 
straightforward, fully disclosed, working relationship. I think 
it's critical to our ability to provide oversight, our ability 
to have the right kind of relationship with the Agency so we 
know where each other is and can move forward together in terms 
of what needs to be done to provide the intelligence necessary 
to protect the American people.
    So, I wanted to say that. I'd like to follow up a little 
bit more on the leaks question because I have a few more 
questions. I was going to delve into that in more detail, but 
it's already been discussed by Senator Risch and others. But 
let me just ask a couple of other questions to clear some 
things up in my mind.
    My understanding is that the Associated Press had 
information relative to the intercept of a planned operation 
that perhaps had something to do with airlines and explosive 
devices; that apparently they had that for a few days and then 
either were about to or had gone ahead and released it. I'm 
assuming that your then calling the conference call was in 
response to what they had just released; is that correct?
    Mr. Brennan. Yes. A number of news networks have put out 
information about this. Yes.
    Senator Coats. And you expressly arranged this 
teleconference for what exact purpose?
    Mr. Brennan. There were a number of people who were going 
to be going out on the news shows that night who were asking 
about the reports about this intercepted IED and wanted to get 
some context, as far as the nature of the threat, and also were 
asking questions about--``Well, you said, and the U.S. 
Government said, that there was no threat during the 
anniversary of the bin Laden take-down, so how could there not 
have been a threat if, in fact, this IED was out there?''
    Senator Coats. The question I have is this--because based 
on what you said and what we have learned, you then, in that 
teleconference, talked about the fact that, in answering the 
question, ``How do we know this?''--I think the quote that came 
across from Richard Clarke was, ``never came close, because 
they had insider information, insider control.'' And you had 
referenced that you had said that to the group.
    Mr. Brennan. No, what I said was inside control of the 
plot, and that the device was never a threat.
    Senator Coats. Okay, ``insider control.''
    Mr. Brennan. No, I said ``inside control''--not 
``insider.''
    Senator Coats. Okay, ``inside control.'' The Associated 
Press never made any mention about inside control. Why was it 
necessary, then, to add that? Why couldn't you have just simply 
said, ``We've intercepted a plot--it's been a successful 
interception''? Because once the word ``inside control'' got 
out, then all the speculation--and correct--was that that 
``inside control'' was interpreted as meaning ``we've got 
somebody inside.''
    And the result of that was the covert action operation had 
to be dissolved because the control agent, the inside person, 
was--well, essentially, the plot was exposed, and therefore, 
the whole operation had to be dissolved.
    Mr. Brennan. Well, Senator, I must caution that there are 
still elements of this event that remain classified and that we 
cannot talk about in public. There was a lot of information 
that came out immediately after AP broke that story. 
Unfortunately, there was a hemorrhaging of information and 
leaks.
    Again, what I said was that there was inside control, 
because what I needed to do, and what I said to the American 
public in open networks the following morning, is that during 
the anniversary period of the bin Laden take-down, when we said 
to the American public that there were no active plots, no 
threat to the American public, that we were aware of, that was 
specific and credible.
    Well, why was not this IED that we had intercepted--why 
wasn't that a threat? Well, because we had inside control of 
the plot, which means any number of things--in terms of 
environmentally, working with partners, whatever else. It did 
not reveal any classified information. And as I said, we have 
to be careful here because there are still operational elements 
of this that remain classified.
    Senator Coats. And that's appropriate, but, you know, it 
was just a couple weeks later when Reuters reported publicly, 
and I quote, ``As a result of the news leaks, U.S. and allied 
officials told Reuters that they were forced to end an 
operation which they had hoped could have continued for weeks 
or longer.''
    Mr. Brennan. There were a lot of things that were reported 
by the press--accurate, inaccurate--a whole bunch of stuff, 
Senator. So I would not put stock in the types of things that 
you might be reading there. I know that I engaged for an 
extended period of time both before that leak and afterward to 
make sure we were able to mitigate any damage from that initial 
leak, and the subsequent leaks, of classified information.
    Senator Coats. So, you're essentially saying that this 
Reuters report may or may not be accurate, but had no link to 
what was disclosed to Mr. Clarke and then what he said shortly 
thereafter on ABC News?
    Mr. Brennan. What I'm saying, Senator, is that I'm very 
comfortable with what I did and what I said at that time to 
make sure that we were able to deal with the unfortunate leak 
of classified information.
    Senator Coats. How frequently did you have to pull groups 
like this together in order to, in a sense, put out authorized, 
or at least what you think is appropriate, news for the correct 
purposes?
    Mr. Brennan. Senator, frequently, if there is some type of 
event, or if there's a disrupted terrorist attack, whether it's 
some ``underwear bomber'' or a disrupted IED, or a printer 
bomb, or whatever else, we will engage with the American 
public. We'll engage with the press. We'll engage with 
individuals who are experienced professional counterterrorism 
experts who will go out and talk to the American public.
    We want to make sure that there are not misrepresentations, 
in fact, of the facts, but at the same time, do it in a way 
that we're able to maintain control over classified material.
    Senator Coats. Now, it does occur, I assume, or it is 
possible, to put out an authorized leak; is that correct?
    Mr. Brennan. No. Those are oxymorons: ``authorized leak.'' 
It is something that would have to be declassified, disclosed, 
and done in a proper manner.
    Senator Coats. And this, in no way, fell into that 
category?
    Mr. Brennan. Absolutely not. I was asked to engage with 
these individuals by the White House Press Office. I talked 
with them about the interception. No, it was not.
    Senator Coats. There is a provision in last year's 
Intelligence Authorization Bill that requires a report to this 
Committee of any authorized leak; so, you are aware of that?
    Mr. Brennan. I'm aware of the provision, yes, that's been 
put forward.
    Senator Coats. And no report has come forward, so I assume 
there haven't been any authorized leaks in the past year?
    Mr. Brennan. I think, you know, what we want to do is to 
make sure if there's going to be any disclosures of classified 
information, that this Committee is going to be informed about 
that. So we will adhere to the provision that was in that Intel 
Authorization Bill.
    Senator Coats. Thank you.
    Mr. Chairman, my time is expired.
    Vice Chairman Chambliss. Senator Udall.
    Senator Udall. Thank you, Mr. Vice Chairman.
    Good afternoon, Mr. Brennan. I can't help but--observing 
that Senator Coats talked about being governor of New Jersey, I 
think being governor of Jersey is a piece of cake compared to 
being the director of the CIA.
    I hope Governor Christie won't take that in the wrong way, 
by the way, because I have great respect for him.
    Mr. Brennan. I have no plans to run against Governor 
Christie.
    [Laughter]
    Senator Udall. Thank you for your service. Thank you for 
your willingness to continue serving as the head of the CIA. I 
have some comments I'd like to share with you, and then of 
course I'll direct some questions your way.
    You've said that President Obama believes that, done 
carefully, deliberately, and responsibly, we can be more 
transparent and still ensure our nation's security. I 
absolutely agree. The American people have the right to know 
what their government does on their behalf.
    Consistent with our national security, the presumption of 
transparency should be the rule, not the exception, and the 
government should make as much information available to the 
American public as possible.
    So when we, on the Committee, and we, as Members of 
Congress, push hard for access to the legal analysis justifying 
the authority of the Executive Branch to lethally target 
Americans using drones, for instance, it erodes the 
government's credibility of the American people.
    I want to tell you I'm grateful to the President for 
allowing Members of this Committee to briefly use some of the 
legal opinions on targeting American citizens. This is an 
important first step. But I want to tell you, I think there's 
much more to be done in that regard. And you've heard that from 
my colleagues here today.
    I've long believed that our government also has an 
obligation to the American people to face its mistakes 
transparently, help the public understand the nature of those 
mistakes, and correct them. The next director of the CIA has an 
important task ahead in this regard.
    Mr. Brennan, I know you're familiar with the mistakes that 
I'm referring to. We've already discussed those here today to 
some extent. They're outlined in the Committee's 6,000-page 
report on the CIA's detention and interrogation program, based 
on a documentary view of over 6 million pages of CIA and other 
records, and including 35,000 footnotes.
    I believe that this program was severely flawed. It was 
mismanaged. The enhanced interrogation techniques were brutal, 
and, perhaps most importantly, it did not work. Nonetheless, it 
was portrayed to the White House, the Department of Justice, 
the Congress, and the media as a program that resulted in 
unique information that saved lives.
    And I appreciate the comments you made earlier about the 
misinformation that may have flowed from those who were in 
charge of this program to people like yourself. Acknowledging 
the flaws of this program is essential for the CIA's long-term 
institutional integrity, as well as for the legitimacy of 
ongoing sensitive programs. The findings of this report 
directly relate to how other CIA programs are managed today.
    As you said in your opening remarks, and you so powerfully 
referenced the Memorial Wall, all CIA employees should be proud 
of where they work, and of all the CIA's activities. I think 
the best way to ensure that they're proud is for you to lead in 
correcting the false record, and instituting the necessary 
reforms that will restore the CIA's reputation for integrity 
and analytical rigor. The CIA cannot be its best until the 
leadership faces the serious and grievous mistakes of this 
program.
    So, if I might, let me turn to my first question. 
Inaccurate information on the management operation 
effectiveness of the CIA's detention and interrogation program 
was provided by the CIA to the White House, the DoJ, Congress, 
and the public. Some of this information is regularly and 
publicly repeated today by former CIA officials, either 
knowingly or unknowingly.
    And although we now know this information is incorrect, the 
accurate information remains classified, while inaccurate 
information has been declassified and regularly repeated.
    And the Committee will take up the matter of this report's 
declassification separately. But there's an important role I 
think the CIA can play in the interim: CIA has a responsibility 
to correct any inaccurate information that was provided to the 
previous White House, Department of Justice, Congress, and the 
public, regarding the detention and interrogation program.
    So, here's my question: do you agree that the CIA has this 
responsibility? And I'd appreciate a yes or no answer.
    Mr. Brennan. Yes, Senator.
    Senator Udall. Thank you for that. Again, yes or no--will 
you commit to working with the Committee to correct the public 
and internal record regarding the detention and interrogation 
program within the next 90 days?
    Mr. Brennan. Senator, I think it's only fair of me to say 
that I am looking forward to CIA's response to that report so 
that we're assured that we have both the Committee's report, as 
well as CIA's comments on it. And I will be getting back to 
you, yes.
    Senator Udall. I can understand you want to make sure you 
have accurate time. I understand, as well, that the CIA will 
finish their analysis by the middle of February. And so, I hope 
we can work within that time frame.
    And I know that in your answers to the Committee in 
preparing for this hearing, you wrote that ``the CIA, in all 
instances, should convey accurate information to Congress. When 
an inaccurate statement is made and the CIA is aware of the 
inaccuracy, it must immediately correct the record. And 
certainly, I would do so, if I were director.''
    So, I take your answer in the spirit of the written 
testimony you provided to the Committee. Let me turn to the 
report and its eventual declassification, if I might.
    I don't think it has to be difficult--that is, the 
declassification--for these reasons: the identities of the most 
important detainees have already been declassified; the 
interrogation techniques themselves have been declassified; the 
application of techniques to detainees has been declassified to 
some extent, with a partial declassification of the inspector 
general report; and the intelligence was declassified to a 
significant extent when the Bush administration described plots 
it claimed were thwarted as a result of the program.
    So long as the report does not identify any undercover 
officers, or perhaps the names of certain countries, can you 
think of any reason why the report could not be declassified 
with the appropriate number of redactions? Can you answer yes 
or no to that question?
    Mr. Brennan. I would have to take that declassification 
request under serious consideration, obviously. That's a very 
weighty decision, in terms of declassifying that report, and I 
would give it due consideration. But there are a lot of 
considerations that go into such decisions.
    Senator Udall. I want to, again, underline that I think 
this would strengthen the CIA. It would strengthen our standing 
in the world. America is at its best, as we discussed earlier 
today, when it acknowledges its mistakes, and learns from those 
mistakes.
    And I want to quote Howard Baker, who I think we all admire 
in this room. He spoke about the Church Committee, which he, 
you know, was an important effort on the part of this Congress. 
And there was much broader criticism of the CIA in that Church 
Committee process. And the CIA came out of that stronger and 
more poised to do what it's supposed to do.
    So I want to quote Howard Baker. He wrote: ``In all candor, 
however, one must recognize that an investigation such as this 
one''--he's referencing the Church Committee, but I think it 
could apply to what this Committee has done, as well--``of 
necessity, will cause some short-term damage to our 
intelligence apparatus. A responsible inquiry, as this has 
been, will, in the long run, result in a stronger and more 
efficient Intelligence Community.
    ``Such short-term inquiry will be outweighed by the long-
term benefits gained from the restructuring of the Intelligence 
Community with more efficient utilization of our intelligence 
resources.''
    So, again, Mr. Brennan, I look forward to working with you 
to complete these tasks that we've outlined here today. In the 
long run, I have faith in the CIA like you have faith in the 
CIA that it will come out of this study stronger and poised to 
meet the 21st Century intelligence challenges that are in front 
of us. Thank you again for your willingness to serve.
    Mr. Brennan. Thank you, Senator.
    Chairman Feinstein. Thank you, Senator Udall.
    Senator Rubio.
    Senator Rubio. Thank you. Thank you, Mr. Brennan, for being 
here with us today, and congratulations on your nomination.
    I wanted to ask, in the 2007 CBS interview, you said that 
information obtained in interrogations have saved lives. In 
September of 2011, you said in a speech at Harvard, that 
whenever possible, the preference of the administration is to 
take custody of individuals so that we could obtain information 
which is, quote, ``vital to the safety and security of the 
American people.''
    So, obviously, you believe that interrogations of 
terrorists can give us information that could prevent attacks 
in the future?
    Mr. Brennan. Absolutely agree.
    Senator Rubio. But you don't believe the CIA should be in 
the business of detention, correct?
    Mr. Brennan. I agree.
    Senator Rubio. So, who should be?
    Mr. Brennan. Well, there are a number of options--U.S. 
military, which maintains an active interrogation program, 
detention program; the FBI, as part of its efforts on 
counterterrorism; and our international partners, and working 
with them. And that's where, in fact, most of the 
interrogations are taking place of terrorists who have been 
taken off of the battlefields in many different countries.
    Senator Rubio. So there are active interrogations 
occurring?
    Mr. Brennan. Absolutely, every day.
    Senator Rubio. Okay. About the foreign partners that you 
talk about, have you talked to folks in the CIA about their 
impressions of the quality of information we're getting from 
our foreign partners?
    Mr. Brennan. Yes, on a regular basis.
    Senator Rubio. Would it surprise you to know that some of 
them have indicated to us repeatedly, over the last couple of 
years that I've been here, that the information we get directly 
is much better than anything we get from our foreign partners 
on some of these issues?
    Mr. Brennan. Right. And that's why we work with our foreign 
partners so that we can have direct access to these individuals 
that have been detained.
    Senator Rubio. Well, I'll tell you why I'm concerned. Ali 
Ani al-Harzi--I think is how I pronounce his name--he's a 
suspect in the Benghazi attack, and the Tunisians detained him, 
correct?
    Mr. Brennan. Yes, he was taken into custody by the 
Tunisians.
    Senator Rubio. Did we not ask for access to him, to be able 
to interrogate him and find out information?
    Mr. Brennan. Yes. And the Tunisians did not have a basis in 
their law to hold him.
    Senator Rubio. So they released him?
    Mr. Brennan. They did.
    Senator Rubio. Where is he? We don't know?
    Mr. Brennan. He's still in Tunisia.
    Senator Rubio. That doesn't sound like a good system of 
working with our foreign partners.
    Mr. Brennan. No, it shows that the Tunisians are working 
with their rule of law, as well--just the way we do.
    Senator Rubio. Well, we have someone who was a suspect in 
the potential in the attack on Benghazi. They didn't give us 
access to him and we don't have any information from him.
    Mr. Brennan. We work with our partners across the board, 
and when they are able to detain individuals, according to 
their laws, we work to see if we can have the ability to ask 
them questions--sometimes indirectly and sometimes directly.
    Senator Rubio. So your point is that Tunisian law did not 
allow them to hold him, and therefore they let him go before we 
could get there to talk to him?
    Mr. Brennan. And we didn't have anything on him, either, 
because if we did, then we would've made a point to the 
Tunisians to turn him over to us. We didn't have that.
    Senator Rubio. What role should the CIA play in 
interrogations?
    Mr. Brennan. The CIA should be able to lend its full 
expertise, as it does right now, in terms of--in support of 
military interrogations, FBI debriefings and interrogations, 
and our foreign partner debriefings. And they do that on a 
regular basis.
    Senator Rubio. And so, what's the best setting to do that 
in? For example, if a suspected terrorist is captured, and we 
think we can obtain information from them, where would they go? 
Where do you suggest that they be taken, for example; what's 
the right setting for it?
    Mr. Brennan. There are many different options, as far as 
where they go. Sometimes it is with--foreign partners, they put 
the individuals in their jails and in their detention 
facilities according to their laws, and people can access that.
    We take people, as we've done in the past, and put them on 
naval vessels and interrogate them for an extended period of 
time.
    Senator Rubio. Okay. So you think that's the best setting--
the naval vessel?
    Mr. Brennan. No, I think----
    Senator Rubio [continuing]. From our perspective, leaving 
aside the foreign partners for a second--for us.
    Mr. Brennan [continuing]. I think each case requires a very 
unique and tailored response. And that's what we've done.
    Whether somebody is picked up by a foreign partner, whether 
somebody is picked up on the high seas, or anywhere else, what 
we need to do is see what the conditions are, what we have as 
far as the basis for that interrogation, what type of legal 
basis we have for that. So it's very much tailored to the 
circumstances.
    Senator Rubio. When we detain a suspected terrorist, the 
purpose of the interrogation--and I think you'd agree with this 
statement--the purpose of an interrogation is to develop 
information that could be used to disrupt terrorist activities 
and prevent attacks, correct?
    Mr. Brennan. Without a doubt.
    Senator Rubio. It's not to lay the case for a criminal 
conviction.
    Mr. Brennan. Well, I think, you know, you want to take the 
person off the battlefield. You also want to get as much 
intelligence as possible. You don't just want to get the 
information from somebody and then send them off. You need to 
be able to do something with them. And we've put people away 
for 99 years--for life--so that, in fact, they're not able to 
hurt Americans ever again.
    So, what you want to do is get that intelligence, but also, 
at the same time, put them away so that justice can be done.
    Senator Rubio. I understand. But the number one priority, 
initially, is not necessarily to protect the record for a 
criminal prosecution; it's to obtain timely information----
    Mr. Brennan. Absolutely right.
    Senator Rubio [continuing]. So we can act correctly----
    Mr. Brennan. Absolutely right.
    Senator Rubio. Priority number two is to take them off the 
battlefield to ensure they can't attack us in the future.
    Mr. Brennan. Right. It's not an either-or, but I agree with 
you.
    Senator Rubio. Why shouldn't we have places where we 
interrogate people; for example, Guantanamo? Why shouldn't we 
have a place to take people that we obtain? Because is it not 
an incentive to kill them rather than to capture them, if we 
don't have a----
    Mr. Brennan. No, it's never an incentive to kill them. And 
any time that we have encountered somebody, we have come up 
with, in fact, the route for them to take in order to be 
interrogated, debriefed, as well as prosecuted.
    Senator Rubio. So, where would we--but why is it a bad idea 
to have a place that we can take them to?
    Mr. Brennan. It's not a bad idea. We need to have those 
places.
    And again, sometimes it might be overseas, sometimes it 
might be a naval vessel, a lot of times it's back here in the 
States, where we bring someone back because we, in fact, have a 
complaint on them or an indictment on them, and then we bring 
them into an Article 3 process. And so we can elicit 
information from them and put them away behind bars.
    Senator Rubio. Is the Article 3 process, in your mind, an 
ideal way to develop this kind of information, or aren't there 
limitations in the Article 3 process?
    Mr. Brennan. I'm very proud of our system of laws here and 
the Article 3 process. Our track record is exceptionally strong 
over the past dozen years, couple dozen years; that so many 
terrorists have been, in fact, successfully prosecuted and will 
not----
    Senator Rubio. No, I understand, but in terms of--our first 
priority is to develop information----
    Mr. Brennan. Absolutely; the FBI does a great job.
    Senator Rubio. But an Article 3 setting is not the most 
conducive to that.
    Mr. Brennan. I would disagree with that.
    Senator Rubio. Well, they're immediately advised about not 
cooperating and turning over information that would incriminate 
them.
    Mr. Brennan. No. Again, it's tailored to the circumstances. 
Sometimes an individual will be Mirandized. Sometimes they will 
not be Mirandized right away. Mirandizing an individual means 
only that the information that they give before then cannot be 
used in Article 3 court.
    But, in fact, the FBI do a great job, as far as listing 
information after they're Mirandizing them, and so they can get 
information as part of that type of negotiation with them, let 
them know they can in fact languish forever, or we can in fact 
have a dialogue about it intelligently.
    Senator Rubio. Just one last point, and I'm not going to 
use all my--I only have a minute left.
    This Harzi case that I talked about--you're fully 
comfortable with this notion that because the Tunisians 
concluded that they didn't have a legal basis to hold him, we 
now lost the opportunity to interrogate someone that could've 
provided us some significant information on the attack in 
Benghazi?
    Mr. Brennan. Senator, you know, this country of America 
really needs to make sure that we are setting a standard and an 
example for the world, as far as the basis that we're going to, 
in fact, interrogate somebody, debrief somebody. We want to 
make sure we're doing it in conjunction with our international 
partners.
    We also want to make sure that we have the basis to do it, 
so that we don't have to face, in the future, challenges about 
how we, in fact, obtained the----
    Senator Rubio. What is that law? You keep on talking about 
the basis of our law; what law exactly are you talking about in 
terms of the basis of detaining someone? When you say that we 
want to make sure that we have a basis to--because you said 
that----
    Mr. Brennan. Well, that's right.
    Senator Rubio. Based on what? Which law are we talking 
about?
    Mr. Brennan. Well, it all depends on the circumstance. Are 
we talking about law of war detention authority, which the U.S. 
military has? Are you talking about Article 3 authority that 
the FBI has?
    Senator Rubio. Right.
    Mr. Brennan. The CIA does not have, by statute, any type of 
detention authority.
    Senator Rubio. The point I'm trying to get at is we don't--
the truth of the matter is we don't know Harzi knew anything 
about the Benghazi attack.
    We don't know if he knew about future attacks that were 
being planned by the same people, because we never got to talk 
to him because Tunisia said their laws wouldn't let them hold 
him, which is an excuse we've heard in other parts of the 
world, as well.
    And that doesn't concern you, that we don't--that we 
weren't able to obtain this information?
    Mr. Brennan. We press our partners and foreign governments 
to hold individuals and to allow us access to it. Sometimes 
their laws do not allow that to happen. I think the United 
States government has to respect these governments' right to, 
in fact, enforce their laws appropriately.
    What we don't want to do is to have these individuals being 
held in some type of custody that's extrajudicial.
    Senator Rubio. Okay, thank you.
    Chairman Feinstein. Thank you, Senator Rubio.
    Senator Warner.
    Senator Warner. Thank you, Madam Chairman. Thank you, 
again, Mr. Brennan, for your testimony today.
    One of the things that I think we've heard from a number of 
my colleagues, and we had this discussion when we discussed the 
Committee's study on detention and interrogation, is, should 
you be confirmed, how do we ensure that the CIA director is 
always going to be well-informed?
    And particularly, to a--we've questioned you today about a 
number of key sensitive programs. The nature of the Agency's 
work is that a lot of these programs are disparate, varied. And 
there needs to be some ability to measure objectively the 
success of these programs; not simply by those individuals that 
are implementing the programs.
    And while this is not the setting to talk about any 
individual of these programs, I guess what I'm interested in is 
pursuing the conversation we started about how you might set up 
systems so that, to the best extent possible, as the CIA 
director, you're going to make sure what's going on, get an 
accurate, objective review, and not simply have the information 
that simply bucks up through the system?
    Mr. Brennan. Yes, that's an excellent point, Senator--one 
that I'm very concerned about. In order to have objective 
measures of effectiveness, the metrics that you want to be able 
to evaluate the worth of a program, you cannot have the 
individuals who are responsible for carrying it out. As hard as 
they might try, they cannot help, I think, view the program and 
the results in a certain way. They become witting or unwitting 
advocates for it.
    So what we need to do is to set up some type of system 
where you can have confidence that those measures of 
effectiveness are being done in the most independent and 
objective way. And that's one of the things that I want to make 
sure I take a look at, if I were to go to the Agency.
    Senator Warner. Again, the nature of so many programs--all 
very sensitive in nature; you have to have almost, as we 
discussed, probably not an IG type vehicle, something that is 
more run out of the director's office, but you've got to have 
some kind of red team that's going to be able to check this 
information out to make sure you've--so that you hear 
colleagues here press on what you have done, or could have 
done, or should have done, or if you had that oversight, you've 
got to have that objective information to start with.
    Mr. Brennan. Absolutely. I tend to have a reputation for 
being a detailed person. And having been an analyst in an 
intelligence office for many years, I need to see the data. I 
cannot rely just on some interpretation of it. So, I do very 
much look forward to finding a way that the director's office 
can have this ability to independently evaluate these programs 
so that I can fairly and accurately represent them to you. I 
need to be able to have confidence, myself.
    Senator Warner. As you know--and we all know--our country 
is grappling with enormous fiscal challenges. And that means, 
well, national security remains our most essential requirement 
for our national government. Everything's going to have to able 
to be done in a fiscally constrained period.
    You know, how are you going to think about thinking through 
those challenges on where cuts, changes need to be made? And if 
you can specifically outline--one of the concerns that I have 
is, kind of, division of labor and appropriate roles between 
the CIA and the DoD SOCOM operations, fields where that kind of 
potential build-up in that capacity is--how do we get that done 
in these tight budget times?
    If you could address both of those, I'd appreciate it.
    Mr. Brennan. In a fiscally constrained environment, we have 
to make sure, more than ever, that every single dollar that's 
dedicated to intelligence is going to be optimized. And in 
fact, if sequestration kicks in, what I wouldn't want to do as 
CIA director is do the salami-slicing, which is, you know, five 
percent off the top of gross, all programs, because all the 
programs are not----
    Senator Warner. One of the reasons why we need to make sure 
sequestration----
    Mr. Brennan. That's absolutely right, because it's going to 
have a devastating impact on the national security of this 
country.
    And so, I would want to make sure, even if it doesn't 
happen in a fiscally constrained environment, that I look at 
the programs and prioritize. And we really have to take a look 
at what are those programs that we really need to resource 
appropriately.
    As we're going to have--and we've had--some benefits from 
pulling folks out of Iraq, and with the continued draw down of 
forces in Afghanistan, there's going to be some resource and 
assets that we're going to have to reallocate there. So I'll 
look carefully at that.
    So what I want to do is to make sure that if I go to CIA, I 
have an understanding about exactly how these monies are being 
spent. Then, as you point out, there is quite a bit of 
intelligence capability within the Defense Department, and I 
know there's been recent press reports about the Clandestine 
HUMINT Service--Defense Clandestine Service--and its work with, 
in fact, CIA.
    I want to make sure these efforts are not redundant 
whatsoever. And I've had these conversations with Mike Morell, 
as well as with General Flynn over at DIA, to make sure that 
these efforts are going to truly be integrated and 
complementary, because we cannot have unnecessarily redundant 
capabilities in this government, particularly in an environment 
that we have right now on the fiscal front.
    Senator Warner. I think this is an area that's going to 
need a lot of attention and a lot of oversight. I get concerned 
at times that the IC, on one hand, and the DoD on the other 
hand, think they're coming from separate originators of 
funding, and ultimately, they still have to be within the 
greater budget constraints.
    Let me--I know my time is running down. Your background, 
and most of your expertise, has been on the CT side. Clearly, 
the challenge we've got is we see emerging threats in parts of 
the world that we're not on the front line, as we see 
disruptions particularly through the Middle East, where, 
perhaps in retrospect, we didn't have the right kind of 
coverage on social media and on to the streets.
    How do we make sure we're going to get within the kind of 
fiscal constraints, that we don't go complete CT; that we make 
sure we've got the coverage we need, the capabilities we need, 
and the worldwide coverage we need, with your approach, 
particularly with your background; if you could address that.
    Mr. Brennan. Well, clearly, counterterrorism is going to be 
a priority area for the Intelligence Community and for CIA for 
many years to come. Just like weapons proliferation is, as 
well. Those are enduring challenges. And since 9/11, the CIA 
has dedicated a lot of effort, and very successfully; they've 
done a tremendous job to mitigate that terrorist threat.
    At the same time, though, they do have this responsibility 
on global coverage. And so, what I need to take a look at is 
whether or not there has been too much of an emphasis of the CT 
front. As good as it is, we have to make sure we're not going 
to be surprised on the strategic front and some of these other 
areas; to make sure we're dedicating the collection 
capabilities, the operations officers, the all-source analysts, 
social media, as you said, the so-called ``Arab Spring'' that 
swept through the Middle East. It didn't lend itself to 
traditional types of intelligence collection.
    There were things that were happening in a populist way, 
that, you know, having somebody, you know, well positioned 
somewhere, who can provide us information, is not going to give 
us that insight, social media, other types of things.
    So I want to see if we can expand beyond the soda straw 
collection capabilities, which have served us very well, and 
see what else we need to do in order to take into account the 
changing nature of the global environment right now, the 
changing nature of the communication systems that exist 
worldwide.
    Senator Warner. Thank you for that. I just would, again--
back to my first point, and my time's about out--I think, 
should you be confirmed, that trying to make sure you've got 
that objective oversight, the ability to make sure that you 
have the best knowledge and best metrics possible so that when 
future challenges arise, you can come to this Committee and 
others and make sure that the President and this Committee is 
informed with the best information possible.
    Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much, Senator.
    Mr. Brennan, so you can be advised, we are not going to do 
the classified hearing following this. We will do it Tuesday at 
2:30. We will, however, do another round just with five minutes 
per senator, so people can wrap up whatever it is they want to 
ask. I hope that is okay with you.
    Mr. Brennan. Absolutely.
    Chairman Feinstein. Thank you. Thank you.
    Senator Collins.
    Senator Collins. Thank you.
    Mr. Brennan, I want to follow up on an issue that several 
of my colleagues have raised on the issue of capturing a 
terrorist versus targeted killing of a terrorist.
    In a recent speech that you gave at the Wilson Center, you 
said: ``Our unqualified preference is to only undertake lethal 
force when we believe that capturing the individual is not 
feasible.''
    Yet, a study by The New American Foundation, as well as 
numerous press reports, indicates that in the first two years 
of President Obama's administration, there were four times the 
number of targeted killings, than in eight years of President 
Bush's administration. Is your testimony today that the huge 
increase in number of lethal strikes has no connection to the 
change in the Obama administration's detention policy?
    Because obviously, if we're capturing a terrorist, we have 
the opportunity to interrogate that individual and perhaps 
learn about ongoing plots; but if the strike is done, that 
opportunity is lost. Are you saying today that it is totally 
unconnected to the Obama administration's shift in its detainee 
policy?
    Mr. Brennan. I can say unequivocally, Senator, that there's 
never been occasion, that I'm aware of, where we had the 
opportunity to capture a terrorist and we didn't, and we 
decided to take a lethal strike. So, certainly, there is no 
correlation there as far as any type of termination of the 
CIA's detention and interrogation program and that increase in 
strikes.
    Now, I will say that if you look out over the last four 
years, what happened in a number of places, such as Yemen, and 
other areas, was that there was, in fact, a growth of al-
Qa'ida, quite unfortunately.
    And so, what we were trying to do, in this administration, 
is to take every measure possible to protect the lives of 
American citizens, whether it be abroad or in the United 
States, as well as a maturation of capabilities and insight 
into those intelligence plots as a result of the investment 
that was made in the previous administration that allowed us, 
in this administration, to take appropriate actions.
    Senator Collins. Well, let's talk further about the 
targeted killings. When the targeted killings began several 
years ago, the first-order effect of these operations was the 
elimination of the senior operational leadership of al-Qa'ida, 
many of the core leaders. Obviously, that is a critical 
priority.
    We have heard both former CIA Director Michael Hayden, in 
an interview on CNN, and General McChrystal say that it is now 
changed, and that the impact of those strikes is creating a 
backlash.
    For example, General McChrystal said, ``The resentment 
created by American use of unmanned strikes is much greater 
than the average American appreciates. They are hated on a 
visceral level, even by people who have never seen one or seen 
the effects of one.''
    He added that the targeted killings by remotely piloted 
aircraft add to the perception of American arrogance that says, 
``Well, we can fly where we want; we can shoot where we want, 
because we can.''
    And General Hayden has also expressed concerns, that now 
that the strikes are being used at the lower levels, arguably, 
that they are creating a backlash that is undermining the 
credibility of governments and creating new terrorists when a 
neighbor or family member is killed in the course of the 
operations.
    Do you agree with General McChrystal and Director Hayden 
about the potential backlash from the strikes, from the 
targeted killings, at this point? I'm not talking about the 
initial strikes.
    Mr. Brennan. I think that is something that we have to be 
very mindful of, in terms of what the reaction is to any type 
of U.S. counterterrorism activities that involve the dropping 
of ordnance anywhere in the world; absolutely. Whether it's a 
remotely piloted aircraft or whether it's a manned aircraft, I 
think we have to take that into account.
    But I would not agree with some of the statements that you 
had quoted there, because what we, in fact, have found in many 
areas is that the people are being held hostage to al-Qa'ida in 
these areas and have welcomed the work that the U.S. Government 
has done with their governments to rid them of the al-Qa'ida 
cancer that exists.
    Senator Collins. Finally, today, this Committee received 
the OLC memos describing the legal justifications that many of 
us, particularly those who have been on the Committee far 
longer than I, have been seeking for some time. And I, too, 
spent a large part of this morning reading them.
    Yet the Obama administration within months of taking office 
released several OLC memos describing the legal justification 
for the treatment of terrorist detainees that were held in U.S. 
custody.
    Do you think it was appropriate that a different standard 
was applied to the release of the memos from the Bush 
administration than those produced by the Obama administration?
    Mr. Brennan. Well, respectfully, Senator, I don't think it 
was a different standard. Not being a----
    Senator Collins. Well----
    Mr. Brennan [continuing]. A lawyer----
    Senator Collins. Well, one was released within four 
months----
    Mr. Brennan. Right.
    Senator Collins [continuing]. Of the Obama administration 
taking office.
    Mr. Brennan. Right.
    Senator Collins. The other had been requested for a very 
long--much longer time.
    Mr. Brennan. Right.
    Senator Collins. And released only today.
    Mr. Brennan. I'm not a lawyer. I've come to learn the term 
sui generis, which means that, you know, it has obviously 
unique circumstances surrounding it.
    The OLC memos that were released shortly after the 
President came into office--they were released because the 
program was terminated. It was no longer in existence. OLC--
Office of Legal Counsel--opinions that deal with ongoing 
activities, ongoing programs--it's a different animal.
    And, therefore, I think those decisions were looked at in a 
much, sort of, different way because of those sui generis 
circumstances.
    Senator Collins. Well, I would say to you that both are 
absolutely essential to the ability of Congress to carry out 
its oversight responsibilities.
    Finally, the Intelligence Reform Act and Terrorism 
Prevention Act of 2004, with which you're very familiar, and of 
which I was a co-author, requires the Director of National 
Intelligence to recommend who the CIA director should be to the 
President of the United States.
    I'm aware of General Clapper--the DNI's letter endorsing 
your nomination, but that's different from his actually 
recommending to the President that you be chosen. To your 
knowledge, did General Clapper recommend to the President that 
you be nominated for this position?
    Mr. Brennan. I know for certain that he made a 
recommendation to the President, but I would defer to General 
Clapper to tell you what that recommendation is.
    Senator Collins. Thank you.
    Chairman Feinstein. Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    Mr. Brennan, let me join my colleagues in thanking you for 
your service to your country and welcoming you to the 
Committee. And should you be confirmed, I'd like to start by 
just inviting you to visit New Mexico at some point, and in 
particular, Sandia and Los Alamos National Labs. Because, while 
you often don't hear about the contributions that they make to 
our Intelligence Community, I can assure you that that support 
is vital to keeping our nation safe.
    I've got a few questions, and please forgive me if some of 
these return to some of the things you've heard from other 
senators. I want to start with your November 2007 interview 
with CBS News, where you said: ``There has been a lot of 
information that has come out of these interrogation procedures 
that the Agency has, in fact, used, against the real hard-core 
terrorists. It has saved lives.''
    Other intelligence officials went a lot further than that 
in defending the use of so-called ``enhanced interrogation 
techniques'' at the time, and some still do.
    If your review of the Committee study convinces you that 
these techniques did not, in fact, save lives, I'd like to 
ask--will you be as public in condemning the program as you 
were in its defense; in other words, will you set the record 
straight?
    Mr. Brennan. I will do whatever possible to make sure that 
the record is straight and that I speak fully and honestly on 
it.
    Senator Heinrich. I want to return to a question that Mr. 
Udall asked you. Would you object--and if so, why--to a public 
release of a truly declassified version of the Committee's 
report?
    Mr. Brennan. Senator, I would give such a request for 
declassification every due consideration. There is a lot of 
information and material in those volumes with a lot of 
potential consequences, as far as its public release. And at 
the same time that we have a commitment to transparency, we 
also, though, have a tremendous commitment to making sure that 
we keep this country safe by protecting its secrets.
    There are a lot of equities as far as liaison partners, 
other types of things, operational activities, maybe source and 
method, so it has to be looked at very, very carefully.
    Senator Heinrich. Well, I would just say I agree with you 
that sources and methods, and many of the operational details, 
absolutely should never be declassified, but there's some basic 
principles, I think, in that report that I think it's going to 
be very important for history to be able to judge. And I would 
urge you to look closely at that.
    Senator Levin asked about waterboarding. Let me follow up a 
little bit. In November 2007 interview with CBS News, you were 
asked if waterboarding was torture, and you said, ``I think it 
is certainly subjecting an individual to severe pain and 
suffering, which is the classic definition of torture. And I 
believe, quite frankly, it's inconsistent with American values 
and it's something that should be prohibited.'' Is that still 
your view?
    Mr. Brennan. Yes, Senator, it is.
    Senator Heinrich. Thank you. Do you believe that all 
agencies of the United States Government should be held to the 
interrogation standards that are laid out in the Army Field 
Manual, as currently required by Executive Order 13491? And do 
you support efforts to codify those requirements into law?
    Mr. Brennan. The Army Field Manual certainly should govern 
the U.S. military's detention and interrogation of individuals.
    The FBI has its own processes and procedures and laws that 
govern its activities. So, what I wanted to do is to make sure 
that, you know, appropriate sort of attention is paid to FBI as 
opposed to the military.
    Senator Heinrich. I understand. Back in 2006, you were part 
of an online discussion with The Washington Post, and you 
suggested at that time that the director of the CIA should have 
a set five-year term, like the FBI director, to guarantee ``the 
absolute need for independence, integrity, and objectivity in 
the senior ranks of our Intelligence Community.''
    Given that you will instead serve at the pleasure of the 
President, how do you maintain your independence?
    Mr. Brennan. Having grown up in the intelligence business 
for 25 years, I truly understand the importance and value of 
maintaining independence, subjectivity, and integrity of the 
intelligence process.
    I know when I've sat in the White House Situation Room and 
when I've looked to the intelligence briefer, that if they were 
to advocate in any way a policy preference, it really calls 
into question the independence, subjectivity, and basis of that 
intelligence. I want them to give me the facts as it is, 
irrespective of what their policy leanings or preferences might 
be, because policymakers need to do that.
    So, in order for me to maintain my integrity as an 
intelligence professional, as I would go to the President or 
the Secretaries of State or Defense, or into the National 
Security Council meetings, I would need to make sure I can say 
it straight, give it straight, and let the policymakers 
determine exactly the best course of action.
    Senator Heinrich. Thank you.
    One last question: I believe it was during that same online 
discussion with Washington Post, you said, quote, ``I think 
that there is an effort underway to get the CIA to adapt to the 
new realities of the Intelligence Community. The CIA has 
resisted many of these changes, which has been a problem. It's 
time to move forward.''
    What exactly did you mean, and has the CIA made progress in 
that direction?
    Mr. Brennan. Well, Senator, a credit to you and your staff 
for pulling up that Washington Post online interview because I 
had not, you know, read that or thought about that in a while. 
And I must say that having grown up in the Agency for 25 years, 
as I said in my testimony, I have tremendous respect for that 
organization. It is exceptionally capable; competent.
    But almost by dint of the nature of its work, it also at 
times is insular. And it has not interacted and interoperated 
the way it needs to with the rest of the Intelligence 
Community, the rest of the U.S. Government. At times, that is 
to protect source and methods and to protect the secrets that 
it has.
    But given the changes in the environment, given the changes 
in the nature of our government, the CIA needs to play a part 
in this larger role. And so, now, the head of the CIA does not 
sit on top of the Intelligence Community; it is part of a 
larger Intelligence Community that is led by the Director of 
National Intelligence.
    So, my objective would be to make sure CIA's capabilities 
are truly going to be leveraged and empower the--the 
responsibilities, the missions of the rest of the government. 
The Department of Homeland Security is a new creation. They 
need intelligence just like others do as well.
    So, what I think I was conveying there is that, you know 
there was resistance at the time of the IRTPA, as we well know, 
that they didn't want to sort of break some of the past 
practices. Well, I think a lot of that resistance is overcome 
and now I think CIA sees the benefits of having somebody that 
can sit on top of the Community, and not have to sit on top of 
the Agency, as well.
    Senator Heinrich. That's very helpful. Thank you very much.
    I yield back, Madam Chair.
    Chairman Feinstein. Thank you very much, Senator.
    Senator King.
    Senator King. Thank you for your testimony and your stamina 
today.
    First, I should tell you that in an earlier hearing today, 
Secretary Panetta was testifying before the Armed Services 
Committee. And, in answer to a question, he strongly endorsed 
your nomination. And I think the record should show that--that 
Secretary Panetta was very complimentary of your capabilities 
and experience.
    Secondly--and this isn't really a question--it's incredibly 
important for the CIA to be totally open with this Committee. 
The reason is that there's no one else watching. Typically in 
our country, the public is involved. The press is involved. 
There are a lot of people that have access to information of 
what the Department of Commerce is doing, or the Department of 
State.
    This is a unique situation, where this Committee and a 
comparable committee in the House are the only places that are 
really paying attention, in terms of our separation of powers. 
So it's not just nice to have that kind of openness; I think 
it's critically important. And I hope you subscribe to that 
view.
    Mr. Brennan. Absolutely; I do, Senator.
    Senator King. Just briefly, and I think Senator Warner 
touched on this--going forward, there needs to be some serious 
discussion with the Department of Defense about where the CIA 
ends and the Department of Defense starts, in terms of 
counterterrorism activities and operations.
    And I don't need to pursue that, but I think Senator Warner 
raised an important point, because in this day and age, we just 
can't be duplicating a whole set of capabilities and priorities 
and officers and procedures and everything else.
    I take it you subscribe to that?
    Mr. Brennan. I do agree, Senator, and I look forward, in a 
closed session, to talking to you about some specific areas 
where I really do believe that Defense-CIA relationship and 
integration of effort is critically important to the safety and 
security of this nation.
    So again, redundant--mindful of not having any type of 
redundant capabilities or waste resources, we need to make sure 
that we can leverage the capabilities that exist in both 
organizations for the good of this country.
    Senator King. And the area I want to spend a little bit of 
time on is the drone policy, and particularly as it relates to 
American citizens. There's a lot of law and history involved in 
our system of checks and balances. James Madison famously, in 
the 51st Federalist, said: ``If people were angels, we wouldn't 
need a government, and if the government was run by angels, we 
wouldn't need checks and balances.''
    He concluded that angels were in as short supply then as 
they are today. And therefore, we need these kinds of checks 
and balances.
    The Fifth Amendment is pretty clear: no deprivation of 
life, liberty or property without due process of law. And we're 
depriving American citizens of their life when we target them 
with a drone attack. Now, I understand that it's under military 
circumstances; these are enemy combatants and all of those 
kinds of things. But I would like to suggest to you that you 
consider--and Madam Chairman, I'd like to suggest to the 
Committee that we consider--a FISA court-type process where an 
American citizen is going to be targeted for a lethal strike.
    And I understand you can't have co-commanders in chief, but 
having the Executive being the prosecutor, the judge, the jury, 
and the executioner, all in one, is very contrary to the 
traditions and the laws of this country, and particularly in a 
situation where there's time. If--a soldier on a battlefield 
doesn't have time to go to court, but if you're planning a 
strike over a matter of days, weeks or months, there is an 
opportunity to at least go to something outside of the 
Executive Branch body, like the FISA court, in a confidential 
and top-secret way, make the case that this American citizen is 
an enemy combatant, and at least that would be--that would be 
some check on the activities of the Executive.
    I have great confidence in you. I have great confidence in 
President Obama. But all the lessons of history is it shouldn't 
matter who's in charge, because we should have procedures and 
processes in place that will protect us no matter who the 
people are that are in the particular positions.
    How do you react to this suggestion?
    Mr. Brennan. Senator, I think it's certainly worthy of 
discussion. Our tradition--our judicial tradition is that a 
court of law is used to determine one's guilt or innocence for 
past actions, which is very different from the decisions that 
are made on the battlefield, as well as actions that are taken 
against terrorists, because none of those actions are to 
determine past guilt for those actions that they took.
    The decisions that are made are to take action so that we 
prevent a future action, so we protect American lives. That is 
an inherently Executive Branch function to determine, and the 
Commander-in-Chief and the Chief Executive has the 
responsibility to protect the welfare, well-being of American 
citizens.
    So the concept I understand and we have wrestled with this 
in terms of whether there can be a FISA-like court, whatever--a 
FISA-like court is to determine exactly whether or not there 
should be a warrant for, you know, certain types of activities. 
You know----
    Senator King. It's analogous to going to a court for a 
warrant--probable cause----
    Mr. Brennan. Right, exactly. But the actions that we take 
on the counterterrorism front, again, are to take actions 
against individuals where we believe that the intelligence base 
is so strong and the nature of the threat is so grave and 
serious, as well as imminent, that we have no recourse except 
to take this action that may involve a lethal strike.
    Senator King. I completely agree with you, and I understand 
the dilemma. And I'm not trying to suggest anything that would 
limit our ability to take action on behalf of American 
citizens. I would just feel more comfortable if somebody other 
than a Member of the Executive said, ``Yes, we agree that the 
evidence is so strong,'' et cetera, as you stated it.
    In the Hamdi decision, Sandra Day O'Connor had a wonderful 
statement: ``A state of war is not a blank check for the 
President when it comes to the rights of the nation's 
citizens.''
    Mr. Brennan. Right. And that's why I do think it's worthy 
of discussion. And the point particularly about due process 
really needs to be taken into account because there's not a 
different standard as far as if a U.S. citizen joins al-Qa'ida, 
you know, in terms of the intelligence base or whatever. But 
American citizens by definition are due much greater due 
process than anybody else by dint of their citizenship.
    So I think this is a very worthwhile discussion. I look 
forward to talking to the Committee and others about it. What's 
that appropriate balance between Executive, Legislative, and 
Judicial Branch responsibilities in this area?
    Senator King. I appreciate your consideration and, again, 
appreciate your testimony today. And thank you for your service 
to the country.
    Madam Chairman, I yield back my time.
    Chairman Feinstein. Thank you very much, Senator.
    We'll do another quick round. I think one of the problems 
is now that the drone program is so public, and one American 
citizen is killed, people don't know much about this one 
American citizen--so-called. They don't know what he's been 
doing. They don't know what he's connected to. They don't know 
the incitement that he has stirred up.
    And I wonder if you could tell us a little bit about Mr. 
al-Awlaki and what he had been doing?
    Mr. Brennan. Well, Senator, I'm not going to talk about any 
particular operation or responsibility on the part of the U.S. 
Government for anything----
    Chairman Feinstein. See, that's the problem. That's the 
problem. I think when people hear ``American citizen,'' they 
think somebody who's upstanding; this man was not upstanding, 
by a long shot. And now, maybe you cannot discuss it here, but 
I've read enough to know that he was a real problem.
    Mr. Brennan. Well, I can talk about Mr. al-Awlaki.
    Chairman Feinstein. And if you were in jeopardy; that's 
right.
    Mr. Brennan. Yes, and before he died he was intimately 
involved in activities that were designed to kill innocent men, 
women, and children, and mostly Americans. He was determined to 
do that. He was not just a propagandist. He was, in fact, part 
of the operational effort that is known as al-Qa'ida in the 
Arabian Peninsula and had key responsibilities in that regard.
    Chairman Feinstein. Can I ask you some questions about him?
    Mr. Brennan. You're the Chairman.
    Chairman Feinstein. You don't have to answer. Did he have a 
connection to Umar Farouk Abdulmutallab, who attempted to 
explode a device on one of our planes over Detroit?
    Mr. Brennan. Yes, he did.
    Chairman Feinstein. Could you tell us what condition it 
was?
    Mr. Brennan. I would prefer not to at this time, Senator. 
I'm not prepared to.
    Chairman Feinstein. Okay. Did he have a connection to the 
Fort Hood attack?
    Mr. Brennan. That is al-Qa'ida in the Arabian Peninsula 
has--a variety of means of communicating and inciting 
individuals, whether that be websites, or e-mails, or other 
types of things. And so there are a number of occasions where 
individuals, including Mr. al-Awlaki, have been in touch with 
individuals. And so, Senator, again, I'm not prepared to 
address the specifics of these, but suffice it to say----
    Chairman Feinstein. I'll just ask you a couple questions. 
Did Faisal Shahzad, who pled guilty to the 2010 Times Square 
car bombing attempt, tell interrogators in 2010 that he was 
inspired by al-Awlaki?
    Mr. Brennan. I believe that's correct, yes.
    Chairman Feinstein. Last October, al-Awlaki--did he have a 
direct role in supervising and directing AQAP's failed attempt, 
well, to bring down two United States cargo aircraft by 
detonating explosives concealed inside two packages, as a 
matter of fact, inside a computer printer cartridge?
    Mr. Brennan. Mr. al-Awlaki was involved in overseeing a 
number of these activities. Yes, there was a relationship 
there.
    Chairman Feinstein. And was it true that they were so 
concealed that the first attempt to find and did not reveal 
them? It took an asset coming back with--to say, ``Go again, 
look at this,'' to find it?
    Mr. Brennan. Yes the concealment method that was used in 
that was one of the best we had ever encountered.
    Chairman Feinstein. So, Mr. al-Awlaki is not, by far, an 
American citizen of whom anyone in America would be proud?
    Mr. Brennan. Mr. al-Awlaki was part of al-Qa'ida, and we're 
at war with al-Qa'ida, and it was his strong determination to 
kill Americans on behalf of al-Qa'ida.
    Chairman Feinstein. Thank you.
    Is it true that in the last four years, the FBI has 
arrested 100 people, either planning, conspiring, or trying to 
commit a terrorist attack on this nation?
    Mr. Brennan. I don't know the exact number, Chairman, but 
yes--they have arrested a lot of people.
    Chairman Feinstein. It's over 100, but they have arrested a 
lot of people, and that's because of good, sound intelligence.
    I think--and this is just me--what people forget is that 
they will kill us if they can, and it's extraordinarily 
difficult if you can't get in to where they were hiding. Would 
it have been possible to have arrested Mr. al-Awlaki where he 
was, in Yemen?
    Mr. Brennan. It is--there are parts of Yemen that are 
ungoverned and beyond the reach of the Yemeni government 
security and intelligence services. And we work very closely 
with the Yemenis to see if we can arrest, detain, individuals. 
Whenever we can, we want to do that, because it's very valuable 
for us.
    Any actions that are taken in concert with the Yemeni 
government are done--in terms of any type of strikes that we 
might engage there with them--are done only because we do not 
have the ability to bring those individuals into custody.
    Chairman Feinstein. Thank you. My time is up.
    Senator Chambliss.
    Vice Chairman Chambliss. Thanks, Madam Chair.
    In 2002, what was your knowledge of interrogation 
videotapes about Abu Zubaydah, and did you seek any information 
about an Office of General Counsel review of them in 2002?
    Mr. Brennan. I don't have a recollection of that, Senator.
    Vice Chairman Chambliss. Of the tapes, or that request?
    Mr. Brennan. At the time, in 2002, I do not know what my 
involvement or knowledge was at the time of the tapes. I 
believe that they--I was aware of the Abu Zubaydah debriefings 
and interrogation sessions being taped.
    Vice Chairman Chambliss. Okay, it should be no surprise 
that many Members have been dissatisfied with the 
administration's cooperation on the Benghazi inquiries.
    For example, Senator Graham asked Director Clapper, in a 
hearing, if he was aware of the series of attacks in Benghazi, 
in the summer of 2012, and asked if he had informed the 
President about those attacks. Now, that seemed like a 
perfectly reasonable question, and the DNI said he would get us 
an answer.
    When we got answers back from the DNI's office, there was a 
notation next to this particular question that Senator Graham 
asked, and here's what it said, and I quote, ``Per NSS''--
that's the National Security Staff--``No response required.''
    Mr. Brennan, that's your shop; do you have any knowledge 
about why Senator Graham's question was not to be answered?
    Mr. Brennan. Senator, I think there's a longstanding 
tradition, understanding, of respecting the executive privilege 
that exists in the Office of the Presidency, and in terms of 
what information is provided to the President, or advice, 
counsel, to him.
    So it's--I would suspect, then, that that question gets 
into this issue of the executive privilege, which I think, 
again, has been a longstanding tradition.
    Vice Chairman Chambliss. Now, are you sure that's the 
answer, or you think that's probably what it was?
    Mr. Brennan. I don't know, firsthand, because that would 
not been a request coming to me.
    Vice Chairman Chambliss. And I understand that, so my 
direction to you--what I'll ask of you--is that you go back and 
review that; we'll get you notation if necessary, and if you 
could just give us a written response to that, if possible.
    Mr. Brennan. You deserve a response, certainly.
    Vice Chairman Chambliss. This weekend, Secretary Panetta 
confirmed that information that led to bin Laden came from 
detainees and the CIA's EIT program. His account comports with 
information we were provided immediately after the raid, and in 
months to follow, from the CIA analyst who actually tracked 
down bin Laden. These analysts told us it was detainee 
information that was key to them finding the courier and, 
ultimately, bin Laden.
    Now, were you briefed by any of the analysts who tracked 
down bin Laden?
    Mr. Brennan. Before the operation?
    Vice Chairman Chambliss. Yes.
    Mr. Brennan. Oh, absolutely; I was engaged with them.
    Vice Chairman Chambliss. Okay. And is that the information 
that was given to you--that it came from interrogation of 
detainees on whom EITs had been used?
    Mr. Brennan. I don't recall if I was given that information 
specifically. They talked about the chain of, sort of, 
collection that took place that was related to some of the 
information coming from the detainees. Yes, so, there was some 
there.
    Vice Chairman Chambliss. Do you agree with Secretary 
Panetta's comments?
    Mr. Brennan. That there was some information that came out 
from there?
    Vice Chairman Chambliss. Yes, that led to the courier.
    Mr. Brennan. Senator, I now, again, looking at this 
document from SSCI, this report, I don't know what the facts 
are, or the truth is. So I really need to look at that 
carefully and see what CIA's response is because the SSCI 
report calls into question whether or not any of the 
information was unique and led to it.
    Vice Chairman Chambliss. Fair enough. Suffice it to say, 
Secretary Panetta's comments are in direct conflict with the 
report that came out of this Committee recently. And you know I 
have serious concerns about that interrogation study that was 
voted out by Committee.
    Now, you told me a couple of days ago when we met that the 
study ``was not objective,'' and it was ``a prosecutor's brief, 
written with an eye toward finding problems.'' And you went on 
to say that you're withholding judgment on the merits and 
action until you read the response.
    And it's my understanding, from what you've said, that 
that's what you're going to do. Suppose the CIA takes the 
position that the study's findings and conclusions are wrong? I 
think I know John Brennan well enough to know that you're going 
to stand up and say whatever's on your mind, and whatever you 
conclude. And I'm not going to ask you for a response to that, 
but I know you'll review it with an open mind and give us your 
thoughts and your opinions about the CIA's response to it and 
how we move forward with this.
    Mr. Brennan. I assure you, Senator, I will do that.
    Vice Chairman Chambliss. Thank you very much.
    Chairman Feinstein. Thank you very much, Senator.
    Senator Wyden.
    Senator Wyden. Thank you.
    Chairman Feinstein. Oh, excuse me--Senator Rockefeller.
    Senator Rockefeller. Thank you, Madam Chair.
    I was just making a comment to the Chair, Mr. Brennan, that 
I've been through a whole lot of confirmation hearings in 28 
years here--and including quite a few CIA directors--and I 
quite honestly do not recall anybody who was more forthright, 
more direct, more accommodating, without violating who you are, 
more open to the possibility of working with this Committee in 
a way that will do two things: one, that will give the folks at 
CIA, who probably constantly worry about what is the next awful 
thing that we're going to say about them--but that's not our 
intention, because we're into the business of problem-solving, 
and if we have to write a 6,000-page thing, it isn't fun for 
us; we're trying to solve a problem.
    I have a feeling you understand that. I have a feeling that 
you feel that the CIA, if they felt that they were working in--
you know, with some contention with the oversight committee in 
the Senate, but, nevertheless, that the Senate was involved, 
was informed, was interested; that this would be something that 
they would welcome; that there are a lot of people who've been 
at the CIA for quite a while who may be sort of stuck in that 
mid-rank crisis, et cetera, who are looking for an open, fresh, 
strong leader.
    I happen to think you are that leader. I've felt that since 
our conversation. I felt that from before our conversation. And 
we haven't had our secret meeting yet, so I always--but I'm not 
going to--I'm sure I'm not going to change my mind.
    I just think you've done an extraordinary job of patience, 
of courtesy, of wisdom, of being able to--the only question 
that you couldn't answer that I'm aware of was who was it that 
took notes at some meeting that you had, teleconference that 
you had 20 years ago. But I find it in my heart to forgive you 
for that.
    So, to me, I think you're a terrific leader, and I'll look 
forward to Tuesday. But I think you're the guy for the job--and 
the only guy for the job.
    Mr. Brennan. Thank you, Senator, for those very kind words. 
And I haven't lived up to them yet. And if I were to go to CIA, 
as I think some people have said--some Senators have said, you 
want to hear not just words, but you want to actually see the 
actions.
    It's a daunting task to go over to CIA. I want every Member 
of this Committee to be an ardent advocate, proponent, and 
defender of the men and women of the Central Intelligence 
Agency. And I see it as my obligation to represent them to you 
on their behalf, so that when times get tough, and when people 
are going to be criticizing and complaining about the CIA, I 
have all of you to say you knew about what the CIA was doing, 
you supported it, and you will defend it.
    Chairman Feinstein. Senator Burr.
    Senator Burr. Thank you, Chairman.
    I'm going to try to be brief because I've noticed you're on 
your fourth glass of water, and I don't want to be accused of 
waterboarding you.
    [Laughter]
    Senator Burr. Mr. Brennan, with the exception of our 
request for the Presidential Daily Briefs around the time of 
Benghazi, for which there was executive privilege claimed, do 
you know of any other claim of executive privilege on any of 
the documents that this Committee's waiting on right now?
    Mr. Brennan. Senator, I know that there are requests for 
some e-mails that might have taken place between the 
Intelligence Community and the White House, whatever, and so 
there are a number of, sort of, elements that I think people 
are looking at. So----
    Senator Burr. But none that executive privilege have been 
claimed on. Correct?
    Mr. Brennan. Well, I am not in a position to say that, 
Senator, and I would defer to those individuals--the White 
House counsel and others--to make those determinations about 
what they want to----
    Senator Burr. Well, let me say it from this end. They have 
not justified not producing those documents based upon 
executive privilege. So I assume if they're going to claim it, 
then they need to claim it quick.
    On January 13th of this year, the President signed into law 
the 2013 Intelligence Authorization Act, which requires 
congressional notification of any authorized disclosure of 
national intelligence.
    Now, we've not received any notifications of authorized 
disclosures. Have there been any authorized disclosures, to 
your knowledge?
    Mr. Brennan. I would like to say that since you haven't 
received any notifications, there haven't been.
    Senator Burr. Would you consider the information reported 
in the press about the counterterrorism playbook an authorized 
disclosure?
    Mr. Brennan. I don't know which piece you're talking about. 
There's been a lot of discussion out there in the media and in 
the newspapers about this.
    And so I don't know specifically about any classified 
information. The fact that the administration may be going 
through a process to try to institutionalize, codify, make as 
rigorous as possible our processes and procedures in and of 
itself is not a classified issue.
    So those details that are classified, I don't know of any 
that came out in some of those reports.
    Senator Burr. Well, if there is classified information 
that's out there, and it was not authorized, was there a crime 
report filed relative to the playbook?
    Mr. Brennan. Presumably there was, Senator. Those 
decisions, as far as initiating criminal investigations, are 
done by those departments and agencies that have stewardship of 
that classified information and in discussions with the 
Department of Justice to make a determination whether or not in 
light of the fact that maybe so many people have access to it, 
how they can proceed with some type of criminal investigations.
    Senator Burr. As we prepare for the closed hearing on 
Tuesday--this is not a question--I'll ask you today that you be 
prepared to provide for the Committee any specific discussions 
that you had where you were authorized to reveal classified 
information or to talk about information on covert action.
    Again, not something I'd like to do today. The answer may 
be zero. If there are things, Tuesday would be an opportunity 
for you to provide. That was a pre-hearing question from the 
Committee that was unanswered.
    My last question is this: I'm still not clear on whether 
you think the information from CIA interrogations saved lives. 
Have you ever made a representation to a court, including the 
FISA court, about the type and importance of information 
learned from detainees, including detainees in the CIA 
detention and interrogation program?
    Mr. Brennan. First of all, on the first part of your 
question, that you're not sure whether or not I believe that 
there has been misinformation, I don't know----
    Senator Burr. I said I wasn't clear whether I understood, 
whether I was clear.
    Mr. Brennan. And I'm not clear at this time, either, 
because I've read a report that calls into question a lot of 
the information that I was provided earlier on my impressions.
    When I was in the government as the head of National 
Counterterrorism Center, I know that I had signed out a number 
of affirmations related to the continuation of certain programs 
based on the analysis and intelligence that was available to 
analysts. And I don't know exactly what it was at the time, but 
we can look at that.
    Senator Burr. But the Committee can assume that you had 
faith--if you make that claim to a court, including the FISA 
court--you had faith in the documents and in the information 
that was supplied you to make that declaration?
    Mr. Brennan. Absolutely. At the time when, if I made any 
such affirmation, I would have had faith that the information I 
was provided was an accurate representation.
    Senator Burr. Thank you very much, Madam Chairman.
    Chairman Feinstein. Senator Wyden.
    Senator Wyden. Thank you, Madam Chair.
    We have talked for several hours now about the question of 
targeted killings of Americans, and you've heard it from a 
number of Senators. And I'd like to get your reaction on one 
point in particular. And that is this question, particularly in 
the context that you've given, that you've tried to focus in 
areas where the evidence is substantial, the threat is 
imminent, where there is a particularly persuasive case that 
the targeted killing of an American is warranted.
    In that kind of case, do you believe that the President 
should provide an individual American with the opportunity to 
surrender before killing them?
    Mr. Brennan. Senator, I haven't spoken about any specific 
operations----
    Senator Wyden. I'm talking about the concept----
    Mr. Brennan. Right.
    Senator Wyden [continuing]. Because you talk about the 
concept.
    Mr. Brennan. Right. Absolutely.
    Senator Wyden. You said imminent threats, serious evidence, 
grave concern; certainly words that strike a chord with me. And 
that's why I'd be interested in your thoughts on whether, in 
those kind of instances, the President ought to give--should 
give--an individual American the opportunity to surrender.
    Mr. Brennan. Right. I think in those instances, and right 
now, let's use the example of al-Qa'ida, because if an American 
were to join al-Qa'ida, we have routinely said--openly, 
publicly, and repeatedly--that we're at war with al-Qa'ida. We 
have repeatedly said that al-Qa'ida is in fact trying to kill 
Americans, and that we are going to do everything possible to 
protect the lives of American citizens from these murderous 
attacks from al-Qa'ida.
    We have signaled this worldwide. We have repeatedly said it 
openly and publicly. Any American who joins al-Qa'ida will know 
full well that they have joined an organization that is at war 
with the United States and that has killed thousands upon 
thousands of individuals, many, many of them who are Americans.
    So I think any American who did that should know well that 
they, in fact, are part of an enemy against us, and that the 
United States will do everything possible to destroy that enemy 
to save American lives.
    Senator Wyden. And I certainly--and I said this at the very 
beginning--I certainly want to be part of that effort to fight 
al-Qa'ida on all of these key fronts. I just want to have some 
answers--and I'll give you another chance--whether you think 
the President should give an individual American the 
opportunity to surrender.
    I think that Senator King, for example, talked about the 
idea of a new court, and there are going to be colleagues that 
are going to talk about a whole host of ideas. And I commend 
you for saying that you're open to hearing about that.
    This is something that can be set in motion, I think, in a 
straightforward way, as a general principle. We're not talking 
about any one individual. And I think you've answered the 
question, and I won't go any further, unless you want to add 
anything to it.
    The only other point I'd say is we've covered a lot of 
ground today. And as far as I'm concerned, we've got a lot of 
ground still to cover. I've made it clear that we've got to see 
any and all of those legal opinions, the ones that the 
bipartisan group of senators asked for, before the vote. And to 
your credit, you said you'd take the message back to the White 
House.
    Because what it really goes to, Mr. Brennan, is this 
question of checks and balances--and we probably didn't use 
that word enough this afternoon--because I think that's really 
what this is all about. Our Constitution fortunately gives the 
President significant power to protect our country in dangerous 
times.
    But it is not unfettered power; it's power that is balanced 
through this special system that ensures congressional 
oversight and public oversight. And so that's why these 
questions that I and others have been trying to get at, in 
terms of congressional oversight, being able to get all of the 
opinions that are relevant to the legal analysis for targeting 
Americans, and then to learn more about how you're going to 
bring the public into the discussion.
    And certainly you've been patient this afternoon, and I 
want you to know I think we've covered a lot of ground, but I 
think we've got a lot to go. And I'd be happy to give you the 
last word. I've got a little more time if you want it.
    Mr. Brennan. Thank you, Senator. First of all, any member 
of al-Qa'ida, whether a U.S. citizen or non-U.S. citizen, needs 
to know that they have the ability to surrender, the right to 
surrender, anytime, anywhere throughout the world. And they can 
do so before the organization is destroyed. We will destroy 
that organization. And again, out there in al-Qa'ida, U.S. 
citizens and others, they can surrender anytime, turn 
themselves in.
    Senator Wyden. Just on that point, I don't take a backseat 
to anybody, in terms of fighting al-Qa'ida. That was why I came 
out with it right at the outset. But I asked you a different 
question, and on the question of what kind of evidence ought to 
be applied, whether there ought to be geographic limits, the 
question of whether an individual should be allowed to 
surrender. For--for example, there is I think also a question 
whether the obligation changes if, you know, a valid target has 
not been publicly reported.
    So there are issues, you know, here. And I think we're 
going to have to continue those--those discussions.
    And Madam Chair, I thank you for this extra round.
    Chairman Feinstein. Thank you.
    Senator Coats.
    Senator Coats. Thank you, Madam Chairman.
    John, I want to just say, and I'm not going to go into it 
here--I think it may be better held for further discussion next 
week in a classified room--but this whole idea of leaks--
nothing upsets me more on this Committee, and we've had a raft 
of these in the last couple of years, than to see something 
that was discussed in classified area written up the next day 
in the newspapers or on the part of the media. It drives some 
of us crazy. It does me, anyway.
    And so, maybe I'm a little paranoid about all this, and so 
forth. I just can't totally get my hands around this AQAP 
situation that we discussed earlier. But I'm going to defer 
that until Tuesday so we can discuss it in more detail.
    Let me just ask you one question here. You said--I don't 
have the date--``The al-Qa'ida core has been decimated in the 
FATA.'' And we're aware of the significant efforts we've made 
and the progress we've made in that regard. But we see this 
thing metastasizing now across northern Africa and other parts.
    What's your, you know, latest assessment of al-Qa'ida, in 
terms of its control and operation of these smaller efforts 
that are popping up like a whack-a-mole machine in different 
parts of the Middle East and North Africa?
    Mr. Brennan. Well, Senator, you used the exact right term 
when you said al-Qa'ida has been metastasizing in different 
parts of the world. We have the al-Qa'ida core that, in the 
past, I think exerted quite a bit of orchestration or order 
over a number of these franchises that have developed.
    Now, as a result of the decimation of the core, and our 
ability to interrupt a lot of the interaction and communication 
between them, a lot of these different elements, like al-Qa'ida 
in the Arabian Peninsula, al-Qa'ida in the Islamic Maghreb, and 
other elements, have grown up and developed as a result of the 
domestic and local sort of environment.
    And so they're all sort of, you know, unique unto 
themselves. They have different features and characteristics. 
We need to make sure that we're able to work with the 
governments and the intelligence and security services in the 
area so that we can put as much pressure on them as possible.
    A number of them have, you know, local agendas. Some of 
them have local agendas as well as international agendas. Al-
Qa'ida in the Arabian Peninsula in Yemen has a very determined 
insurgency effort underway in side of Yemen to try to, you 
know, bring that government down. And the government has done a 
great job, you know, fighting back.
    There are other elements--al-Qa'ida in Islamic Maghreb. You 
know, they're counter-narcotics--they're narcotics smugglers. 
They're human traffickers. They involve quite a bit in 
kidnapping and ransoms, and also involve in tourist attacks.
    So, what we need to do is to take into account what the 
environment is, who we can work with, and how we're going to 
put pressure on them. But any element that is associated with 
al-Qa'ida has, as part of its agenda, death, and destruction. 
And so, I fully agree what we need to do is be mindful of the 
metastasization of the al-Qa'ida cancer.
    Senator Coats. But in relationship to some kind of 
centralized control over all these things, having said that, 
the core is decimated.
    Mr. Brennan. It really varies, you know. We do see al-
Qa'ida core trying to exert some control over some of these 
elements. There's a lot of independence of effort, you know, 
autonomous efforts that are underway. And I'd be happy to be 
able to talk in, you know, closed session about the particular 
relationships that exist between al-Qa'ida and some of these 
other elements.
    Senator Coats. Very good. Thank you.
    Thank you, Madam Chairman.
    Chairman Feinstein. Thank you very much, Senator.
    Senator Collins. Last, but far from least.
    Senator Collins. Thank you. Thank you, Madam Chairman.
    Mr. Brennan, I want to follow up on the point that Senator 
Coats just raised with you, because if you looked at a map back 
in 2001, you would see that al-Qa'ida was mainly in Afghanistan 
and Pakistan. And if you look at a map today, you would see al-
Qa'ida in all sorts of countries.
    That's not to say that there weren't cells in other 
countries back in 2001, but it raises the question in my mind 
of whether, even though we've been successful in taking out 
some of the core of al-Qa'ida and some high-level leaders, 
whether our strategy is working. If the cancer of al-Qa'ida is 
metastasizing, do we need a new treatment?
    Mr. Brennan. What we've tried to do, Senator, over the past 
decade and longer, is to be able to treat this real cancer in a 
number of ways: sometimes it takes lethal force, sometimes it 
takes military might, sometimes it takes working with our 
partners in a variety of ways, sometimes it takes addressing 
some of the infrastructural, institutional, and other 
deficiencies that exist in these countries that al-Qa'ida takes 
advantage of.
    If you look at the geographic map, you know, in the area 
from South Asia over to the Middle East and North Africa, there 
has been tremendous political turbulence in that area over the 
past decade, and particularly in the last couple years. There 
are a lot of spaces--ungoverned spaces--that al-Qa'ida has 
taken advantage of. We've been able to make some significant 
progress in certain areas.
    Somalia is, in fact, a good example of a place where we 
have worked with neighboring countries, we've worked with the 
local government, and we've worked with AMISOM, a multilateral 
element within Africa, to try to suppress the efforts of Al 
Shabaab and al-Qa'ida in East Africa; good progress we made 
there. Because it has to be comprehensive; it's not just a 
kinetic solution to this by any means.
    Now, as we look at the Sahel, and the area in Mali, and 
other areas, these are tremendous expanses of territory where 
al-Qa'ida can put down roots beyond the reach of local 
governments. And so they've been able to put down roots, and 
they've been--it's been unattended because of the difficulties 
that these countries have even feeding their people, much less 
putting in place a system of laws and the intelligence and 
security capability.
    So, is it a different strategy; it has to be a 
comprehensive one. But al-Qa'ida and this--you know, the forces 
of Islamic extremists, that have really corrupted and perverted 
Islam, are making some progress in areas that give me real 
concern. That's why I look at a place like Syria right now, and 
what is going on in that country; we cannot allow vast areas to 
be exploited by al-Qa'ida and these extremist forces, because 
it will be to our peril.
    Senator Collins. I certainly agree with you on that, and in 
our classified or closed hearing next week I'm going to be 
asking you about Syria, and also the Iranian threat. But I 
don't think those are appropriate in open session.
    Just two final questions: one has to do with priorities 
that you would set as director if you are confirmed. In recent 
years, paramilitary operations obviously had consumed a lot of 
resources, expertise, time, energy, and effort at the CIA; do 
you believe this has been at the expense of traditional CIA 
responsibilities--collection, analysis, all source?
    Mr. Brennan. Well, certainly, there have been opportunity 
costs because of the dedication of those resources. What I 
would need to do, if I were to go to CIA, is to inventory 
exactly how our resources are being dedicated against the wide 
variety of strategic priorities to protect our country.
    In terms of operational collection activities worldwide, in 
terms of the all source analysis being done, what are we doing 
in these other areas? Cyber, you know, weapons proliferation, 
political turbulence--there are so many different areas. 
Counterterrorism is an important one. There is also an 
intersection between counterterrorism and a lot of these other 
areas, counter-proliferation, international organized crime, 
other things.
    So we really want to optimize those resources so that we 
can, in fact, leverage the capabilities we have, in order to 
deal with these very challenging issues across a very large 
globe.
    Senator Collins. Mr. Brennan, you have devoted a great deal 
of your life to public service, for which I thank you. And you 
obviously understand the world of intelligence in a way that 
few people do. You've been an intelligence professional for 
much of your professional life.
    In the last four years, you have held a political position 
at the White House. And I have been talking to people at the 
CIA, whom I respect, and one intelligence official told me that 
a key question for the men and women of the CIA is which John 
Brennan are they going to get? Are they going to get John 
Brennan who's been the right-hand advisor of President Obama in 
a political White House--and by the nature of the position--I 
don't say that critically; that's the position--or are they 
going to get John Brennan who was a career CIA officer, who 
worked his way up in the ranks?
    And the concern is that they want to hear that you are 
going to be the CIA's representative to the White House, not 
the White House's representative to the CIA. And I just want to 
give you the opportunity today to respond to that concern.
    I would note that I also heard very good comments from 
people with whom I talked, but I think it's important, when 
someone's coming from a political role, to make clear that 
you're going to be the leader of the Agency and not the White 
House's agent within the Agency.
    Mr. Brennan. Thank you, Senator. I think if I were to be 
fortunate, privileged, and honored to go out to CIA, the CIA 
would get the John Brennan who is neither a Democrat nor 
Republican, nor has ever been; a John Brennan who has a deep 
appreciation and respect for the intelligence profession, one 
who has been fortunate to have lived it for 25 years; a John 
Brennan who has had the great fortune to be in the White House 
the past four years, watching and understanding how 
intelligence is used in support of our national security. CIA 
would get a John Brennan who has been working national security 
issues for my life.
    They would get a John Brennan who really understands that 
the value of intelligence, the importance of intelligence, is 
not to tell the President what he wants to hear, not to tell 
this Committee what it wants to hear, but to tell the 
policymakers, the Congressional overseers, what they need to 
hear--what the Intelligence Community, with all its great 
capability and expertise, has been able to uncover and 
understand about world events that fundamentally affect the 
lives of not just this generation of Americans, but of future 
generations of Americans.
    And so, if I had the great privilege to lead the men and 
women of the CIA, it would be the biggest honor of my life, and 
I would understand just how important and weighty that would 
be. And if I ever dishonored that responsibility, I couldn't 
look myself in the mirror. I couldn't look my parents, my 
family in the mirror. I couldn't look you in the face, and that 
is something that is very important to me.
    So, I guess the proof will be in the pudding, the tasting 
of the pudding, and if I do have that opportunity, it would be 
my intention to make sure I did everything possible to live up 
to the trust and confidence that this Congress, this Senate, 
and this President might place in me.
    Senator Collins. Thank you very much.
    Thank you, Madam Chairman.
    Chairman Feinstein. Thank you very much.
    If there are no further questions, John, I would like to 
associate myself with what Senator Rockefeller said. I've sat 
through a number of these hearings; I don't think I've ever 
heard anyone more forthright or more honest or more direct. You 
really didn't hedge. You said what you thought. And I want you 
to know that that's very much appreciated.
    And I actually think you are going to be a fine and strong 
leader for the CIA, and, you know, I can't help but say I am 
really fully supportive of this and will do everything I 
possibly can to see that our Committee works with you closely 
and honestly.
    We will have a classified hearing. I am specifically going 
to just warn you that I would like to have you respond in 
detail to what I perceive as a difficult, evolving situation in 
North Africa now, with Tunisia, with Libya, with all these 
countries, and certainly with Mali, and how you plan to direct 
the Agency to deal with this evolving momentum that's taking 
place in Northern Africa.
    So that will be for Tuesday. And at the request of Senator 
Levin, I ask unanimous consent to enter into the record a Joint 
Statement that he and I made on April 27, 2012.
    [The Joint Statement of Senators Feinstein and Levin, dated 
April 27, 2012, follows:]
  Joint statement from Senator Dianne Feinstein (D-Calif.), Chairman, 
   Senate Intelligence Committee, and Senator Carl Levin (D-Mich.), 
               Chairman, Senate Armed Services Committee
    We are deeply troubled by the claims of the CIA's former Deputy 
Director of Operations Jose Rodriguez regarding the effectiveness of 
the CIA's coercive interrogation techniques.
    The Senate Select Committee on Intelligence will soon complete a 
comprehensive review of the CIA's former Detention and Interrogation 
Program. Committee staff has reviewed more than 6 million pages of 
records and the Committee's final report, which we expect to exceed 
5000 pages, will provide a detailed, factual description of how 
interrogation techniques were used, the conditions under which 
detainees were held, and the intelligence that was--or wasn't--gained 
from the program.
    Statements made by Mr. Rodriguez and other former senior government 
officials about the role of the CIA interrogation program in locating 
Usama bin Laden (UBL) are inconsistent with CIA records. We are 
disappointed that Mr. Rodriguez and others, who left government 
positions prior to the UBL operation and are not privy to all of the 
intelligence that led to the raid, continue to insist that the CIA's 
so-called ``enhanced interrogation techniques'' used many years ago 
were a central component of our success. This view is misguided and 
misinformed.
    The roots of the UBL operation stretch back nearly a decade and 
involve hundreds, perhaps thousands, of intelligence professionals who 
worked non-stop to connect and analyze many fragments of information, 
eventually leading the United States to Usama bin Laden's location in 
Abbottabad, Pakistan. The suggestion that the operation was carried out 
based on information gained through the harsh treatment of CIA 
detainees is not only inaccurate, it trivializes the work of 
individuals across multiple U.S. agencies that led to UBL and the 
eventual operation.
    We are also troubled by Mr. Rodriguez's statements justifying the 
destruction of video tapes documenting the use of coercive 
interrogation techniques as ``just getting rid of some ugly visuals.'' 
His decision to order the destruction of the tapes was in violation of 
instructions from CIA and White House lawyers, illustrates a blatant 
disregard for the law, and unnecessarily caused damage to the CIA's 
reputation.
    Further, it's worth repeating, as discussed in the Senate Armed 
Services Committee's 2008 report, the SERE techniques used in the CIA's 
interrogation program were never intended to be used by U.S. 
interrogators. Rather, the techniques--which are based on Communist 
Chinese interrogation techniques used during the Korean War to elicit 
false confessions--were developed to expose U.S. soldiers to the 
abusive treatment they might be subjected to if captured by our 
enemies. An overwhelming number of experts agree, the SERE techniques 
are not an effective means to illicit accurate information.
Misinformation Relating to the UBL Operation
    Statement of Jose Rodriguez, former CIA Deputy Director for 
Operations, Time Magazine, May 4, 2011:

        ``Information provided by [CIA detainees] KSM and Abu Faraj al-
        Libbi about bin Laden's courier was the lead information that 
        eventually led to the location of [bin Laden's] compound and 
        the operation that led to his death.''

    This statement is wrong. The original lead information had no 
connection to CIA detainees. The CIA had significant intelligence on 
the courier that was collected from a variety of classified sources. 
While the CIA's enhanced interrogation techniques were used against KSM 
and al-Libbi, the pair provided false and misleading information during 
their time in CIA custody. This information will be detailed in the 
Intelligence Committee's report.
    Statement of Michael Hayden, former CIA Director, Scott Hennen 
Show, May 3, 2011:

        ``[W]hat we got, the original lead information--and frankly it 
        was incomplete identity information on the couriers--began with 
        information from CIA detainees at the black sites.''

    This statement is wrong. The original information had no connection 
to CIA detainees. The CIA had significant intelligence on the courier 
that was collected from a variety of classified sources. This 
information will be detailed in the Intelligence Committee's report.
    Statement of Michael Mukasey, former Attorney General, Wall Street 
Journal, May 6, 2011:

        ``Consider how the intelligence that led to bin Laden came to 
        hand. It began with a disclosure from Khalid Shiekh Mohammed 
        (KSM) who broke like a dam under the pressure of harsh 
        interrogation techniques--that included waterboarding. He 
        loosed a torrent of information--including eventually the name 
        of a trusted courier of bin Laden Another of those gathered up 
        later in this harvest, Abu Faraj al-Libi, also was subjected to 
        certain of these harsh techniques and disclosed further details 
        about bin Laden's couriers that helped last weekend's 
        achievement.''

    This statement is wrong. There is nothing in CIA intelligence 
records to corroborate this statement.
    Other press reports have suggested that a third CIA detainee 
subjected to the CIA's enhanced interrogation techniques provided 
significant information on the courier and his relationship with al-
Qa'ida. While this third detainee did provide relevant information, he 
did so the day before he was interrogated by the CIA using their 
coercive interrogation techniques. This information will be detailed in 
the Intelligence Committee's report.
    The Facts:

    <bullet>  CIA did not first learn about the existence of the UBL 
courier from detainees subjected to coercive interrogation techniques. 
Nor did the agency discover the courier's identity from detainees 
subjected to coercive techniques. No detainee reported on the courier's 
full name or specific whereabouts, and no detainee identified the 
compound in which UBL was hidden. Instead, the CIA learned of the 
existence of the courier, his true name and location through means 
unrelated to the CIA detention and interrogation program.
    <bullet>  Information to support this operation was obtained from a 
wide variety of intelligence sources and methods. CIA officers and 
their colleagues throughout the Intelligence Community sifted through 
massive amounts of information, identified possible leads, tracked them 
down, and made considered judgments based on all of the available 
intelligence.
    <bullet>  The CIA detainee who provided the most significant 
information about the courier provided the information prior to being 
subjected to coercive interrogation techniques.
    <bullet>  The three detainees subjected to waterboarding provided 
no new information about the courier. In fact, the CIA detainees who 
were subjected to coercive techniques downplayed the courier's 
significance, with some of those detainees denying they knew him at 
all, in the face of significant evidence to the contrary.
    <bullet>  Detainees whom the CIA believed to have information on 
UBL's location provided no locational information, even after 
significant use of the CIA's coercive interrogation techniques.
    Chairman Feinstein. And secondly, in order to have Mr. 
Brennan's answers to questions for the record by the time he 
returns before us in closed session, I ask Members to the right 
questions for the record by 5 o'clock p.m. tomorrow--that's 
Friday, February the 8th--so we have them for you as soon as 
possible so that you can respond to them Tuesday.
    I want to thank you and your family for being here, and I 
wish you well.
    Thank you, and the hearing is adjourned.
    Mr. Brennan. Thank you, Chairman.
    [Whereupon, at 6:00 p.m., the Committee adjourned.]



COMMITTEE BUSINESS MEETING TO VOTE ON THE NOMINATION OF JOHN O. BRENNAN 
           TO BE DIRECTOR OF THE CENTRAL INTELLIGENCE AGENCY

                              ----------                              


                         TUESDAY, MARCH 5, 2013

                               U.S. Senate,
                  Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:40 p.m., in 
Room SH-219, Hart Senate Office Building, the Honorable Dianne 
Feinstein (Chairman of the Committee) presiding.
    Committee Members Present: Senators Feinstein, Chambliss, 
Rockefeller, Burr, Wyden, Mikulski, Coats, Rubio, Heinrich, 
Collins, King, and Coburn.
    Committee Staff Members Present: David Grannis, Staff 
Director; Martha Scott Poindexter, Minority Staff Director; 
Kathleen McGhee, Chief Clerk; Jennifer Barrett, Randy Bookout, 
Michael Buchwald, James Catella, Christian Cook, John Dickas, 
Richard Girven, Lorenzo Goco, Tressa Guenov, Tom Hawkins 
(Minority Ldr's Office), Neal Higgins, Clete Johnson, Ryan 
Kaldahl, Andrew Kerr, Jack Livingston, Eric Losick, Paul 
Matulic, Hayden Milberg, Brian Miller, Michael Pevzner, Tommy 
Ross (Majority Ldr's Office), Jacqueline Russell, Kelly Shaw, 
Tyler Stephens, Chad Tanner, Ryan Tully, Brian Walsh, and James 
Wolfe.
    Chairman Feinstein. Will the Clerk please call the roll?
    Mrs. McGhee. Mr. Rockefeller.
    Senator Rockefeller. Aye.
    Mrs. McGhee. Mr. Wyden.
    Senator Wyden. Aye.
    Mrs. McGhee. Ms. Mikulski.
    Senator Mikulski. Aye.
    Mrs. McGhee. Mr. Udall.
    Chairman Feinstein. Aye by proxy.
    Mrs. McGhee. Mr. Warner.
    Chairman Feinstein. Aye by proxy.
    Mrs. McGhee. Mr. Heinrich.
    Senator Heinrich. Aye.
    Mrs. McGhee. Mr. King.
    Senator King. Aye.
    Mrs. McGhee. Mr. Burr.
    Senator Burr. Aye.
    Mrs. McGhee. Mr. Risch.
    Vice Chairman Chambliss. No by proxy.
    Mrs. McGhee. Mr. Coats.
    Senator Coats. Aye.
    Mrs. McGhee. Mr. Rubio.
    Senator Rubio. Aye.
    Mrs. McGhee. Ms. Collins.
    Senator Collins. Aye.
    Mrs. McGhee. Mr. Coburn.
    Senator Coburn. No.
    Mrs. McGhee. Mr. Chambliss.
    Vice Chairman Chambliss. No.
    Mrs. McGhee. Mrs. Feinstein.
    Chairman Feinstein. Aye.
    Mrs. McGhee. Twelve ayes, three nays.
    [Whereupon, at 3:15 p.m., the Committee adjourned.]
                         Supplemental Material
[GRAPHIC] [TIFF OMITTED] 80718.017

[GRAPHIC] [TIFF OMITTED] 80718.018

[GRAPHIC] [TIFF OMITTED] 80718.019

[GRAPHIC] [TIFF OMITTED] 80718.020

[GRAPHIC] [TIFF OMITTED] 80718.021

[GRAPHIC] [TIFF OMITTED] 80718.022

[GRAPHIC] [TIFF OMITTED] 80718.023

[GRAPHIC] [TIFF OMITTED] 80718.024

[GRAPHIC] [TIFF OMITTED] 80718.025

[GRAPHIC] [TIFF OMITTED] 80718.026

[GRAPHIC] [TIFF OMITTED] 80718.027

[GRAPHIC] [TIFF OMITTED] 80718.028

[GRAPHIC] [TIFF OMITTED] 80718.029

[GRAPHIC] [TIFF OMITTED] 80718.030

[GRAPHIC] [TIFF OMITTED] 80718.031

[GRAPHIC] [TIFF OMITTED] 80718.032

[GRAPHIC] [TIFF OMITTED] 80718.033

[GRAPHIC] [TIFF OMITTED] 80718.034

[GRAPHIC] [TIFF OMITTED] 80718.035

[GRAPHIC] [TIFF OMITTED] 80718.036

[GRAPHIC] [TIFF OMITTED] 80718.037

[GRAPHIC] [TIFF OMITTED] 80718.038

[GRAPHIC] [TIFF OMITTED] 80718.039

[GRAPHIC] [TIFF OMITTED] 80718.040

[GRAPHIC] [TIFF OMITTED] 80718.041

[GRAPHIC] [TIFF OMITTED] 80718.042

[GRAPHIC] [TIFF OMITTED] 80718.043

[GRAPHIC] [TIFF OMITTED] 80718.044

[GRAPHIC] [TIFF OMITTED] 80718.045

[GRAPHIC] [TIFF OMITTED] 80718.046

[GRAPHIC] [TIFF OMITTED] 80718.047

[GRAPHIC] [TIFF OMITTED] 80718.048

[GRAPHIC] [TIFF OMITTED] 80718.049

[GRAPHIC] [TIFF OMITTED] 80718.050

[GRAPHIC] [TIFF OMITTED] 80718.051

[GRAPHIC] [TIFF OMITTED] 80718.052

[GRAPHIC] [TIFF OMITTED] 80718.053

[GRAPHIC] [TIFF OMITTED] 80718.054

[GRAPHIC] [TIFF OMITTED] 80718.055

[GRAPHIC] [TIFF OMITTED] 80718.056

[GRAPHIC] [TIFF OMITTED] 80718.057

[GRAPHIC] [TIFF OMITTED] 80718.058

[GRAPHIC] [TIFF OMITTED] 80718.059

[GRAPHIC] [TIFF OMITTED] 80718.060

[GRAPHIC] [TIFF OMITTED] 80718.061

[GRAPHIC] [TIFF OMITTED] 80718.062

[GRAPHIC] [TIFF OMITTED] 80718.063

[GRAPHIC] [TIFF OMITTED] 80718.064

[GRAPHIC] [TIFF OMITTED] 80718.065

[GRAPHIC] [TIFF OMITTED] 80718.066

[GRAPHIC] [TIFF OMITTED] 80718.067

[GRAPHIC] [TIFF OMITTED] 80718.068

[GRAPHIC] [TIFF OMITTED] 80718.069

[GRAPHIC] [TIFF OMITTED] 80718.070

[GRAPHIC] [TIFF OMITTED] 80718.071

[GRAPHIC] [TIFF OMITTED] 80718.072

[GRAPHIC] [TIFF OMITTED] 80718.073

[GRAPHIC] [TIFF OMITTED] 80718.074

[GRAPHIC] [TIFF OMITTED] 80718.075

[GRAPHIC] [TIFF OMITTED] 80718.076

[GRAPHIC] [TIFF OMITTED] 80718.077

[GRAPHIC] [TIFF OMITTED] 80718.078

[GRAPHIC] [TIFF OMITTED] 80718.079

[GRAPHIC] [TIFF OMITTED] 80718.080

[GRAPHIC] [TIFF OMITTED] 80718.081

[GRAPHIC] [TIFF OMITTED] 80718.082

[GRAPHIC] [TIFF OMITTED] 80718.083

[GRAPHIC] [TIFF OMITTED] 80718.084

[GRAPHIC] [TIFF OMITTED] 80718.085

[GRAPHIC] [TIFF OMITTED] 80718.086

[GRAPHIC] [TIFF OMITTED] 80718.087

[GRAPHIC] [TIFF OMITTED] 80718.088

[GRAPHIC] [TIFF OMITTED] 80718.089

[GRAPHIC] [TIFF OMITTED] 80718.090

[GRAPHIC] [TIFF OMITTED] 80718.091

[GRAPHIC] [TIFF OMITTED] 80718.092

[GRAPHIC] [TIFF OMITTED] 80718.093

[GRAPHIC] [TIFF OMITTED] 80718.094

[GRAPHIC] [TIFF OMITTED] 80718.095

[GRAPHIC] [TIFF OMITTED] 80718.096

[GRAPHIC] [TIFF OMITTED] 80718.097

[GRAPHIC] [TIFF OMITTED] 80718.098

[GRAPHIC] [TIFF OMITTED] 80718.099

[GRAPHIC] [TIFF OMITTED] 80718.100

[GRAPHIC] [TIFF OMITTED] 80718.101

[GRAPHIC] [TIFF OMITTED] 80718.102

  

                                  <all>

</pre></body></html>
